<html>
<title> - 2006 HURRICANE FORECAST AND AT-RISK CITIES</title>
<body><pre>[Senate Hearing 109-1144]
[From the U.S. Government Printing Office]





                                                       S. Hrg. 109-1144
 
               2006 HURRICANE FORECAST AND AT-RISK CITIES

=======================================================================



                                HEARING

                               before the

           SUBCOMMITTEE ON DISASTER PREVENTION AND PREDICTION

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 24, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
67-571                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

           Subcommittee on Disaster Prevention and Prediction

                  JIM DeMINT, South Carolina, Chairman
TED STEVENS, Alaska                  E. BENJAMIN NELSON, Nebraska
GORDON H. SMITH, Oregon              MARIA CANTWELL, Washington
DAVID VITTER, Louisiana              BILL NELSON, Florida



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 24, 2006.....................................     1
Statement of Senator DeMint......................................     1
Statement of Senator Bill Nelson.................................     4
Statement of Senator E. Benjamin Nelson..........................     3
Statement of Senator Lott........................................     6
Statement of Senator Stevens.....................................     8
    Prepared statement...........................................     8
Statement of Senator Vitter......................................     5

                               Witnesses

Mayfield, Max, Director, Tropical Prediction Center/National 
  Hurricane Center, National Weather Service, NOAA, Department of 
  Commerce.......................................................     9
    Prepared statement...........................................    11
Spears, Major General Stanhope S., Adjutant General of South 
  Carolina.......................................................    20
    Prepared statement...........................................    21
Spraggins, Brigadier General Benjamin J., Director, Harrison 
  County Emergency Management Agency.............................    14
    Prepared statement...........................................    17

                                Appendix

Response to written questions submitted by Hon. Daniel K. Inouye 
  to Max Mayfield................................................    31


                       2006 HURRICANE FORECAST 
                           AND AT-RISK CITIES

                              ----------                              


                        WEDNESDAY, MAY 24, 2006

                               U.S. Senate,
        Subcommittee on Disaster Prevention and Prediction,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:32 p.m. in 
Room SD-562, Dirksen Senate Office Building, Hon. Jim DeMint, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Good afternoon. I want to thank the 
witnesses and all my colleagues for being here today. And we 
still expect Chairman Stevens in a few minutes. But, in 
deference to your time, we need to move ahead.
    About this time last year, we had one of the first hearings 
for this committee, and we talked about the possibility of 
hurricanes hitting different places in the United States. And I 
remember, Mr. Mayfield, and Senator Vitter, made a presentation 
on what would happen if a major storm hit New Orleans. Just a 
few months later, about 9 months ago, I was looking out the 
door of a Coast Guard Jayhawk helicopter, flying over the coast 
of Mississippi and Louisiana, reviewing the destruction that 
Hurricane Katrina had wrought upon the region. The devastation 
was as comprehensive as it was heart-wrenching, and it was 
almost exactly as had been predicted in this committee only a 
few months before.
    All along the Mississippi coast you could see where the 
massive wall of water had flattened homes, leveled communities, 
and irreparably damaged the lives of so many Americans. When we 
flew over Louisiana, the water was still so high that, in many 
places, all we could see were the rooftops peaking out of the 
deluge. In the coming weeks and months, we learned that many 
American lives had been devastated, but also, again, recognize 
that, fundamentally, Americans are good and generous people who 
come to the support of their neighbors in their time of need.
    Clearly, in the immediate aftermath of the storm, a number 
of things went wrong. Governments at all levels didn't perform 
as well as any of us would have liked. But some things did go 
right. And as we enter the 2006 hurricane season this week, 
it's worth learning from what has failed, as well as what 
succeeded.
    As everyone saw, the Coast Guard performed splendidly. If 
it wasn't for the tireless and courageous work of the men and 
women of the United States Coast Guard--many more lives would 
have been lost in the aftermath of the storm. And while the 
evacuation in the Gulf States--and New Orleans, in particular--
was incomplete, it could have been much worse. A lot of people 
fled the region because they received advance notice from the 
National Weather Service of the coming storm. Estimates are 
that in excess of 80 percent of the population of the New 
Orleans area evacuated in advance of the storm. While we would 
have liked to have seen 100 percent evacuation, if it had not 
been for the accurate and timely predictions from one of our 
witnesses today, Max Mayfield, and his team at the Hurricane 
Center, the city and the states would not have been able to 
implement their evacuation plans and get as many of their 
citizens out of harm's way as they did.
    This morning, the witnesses come before the Committee to 
discuss the 2006 season. NOAA put out its announcement on 
Monday, telling us that they are 80 percent confident that the 
Atlantic hurricane season is going to be an above-average 
season. While it might not be as bad as last year, they're 
estimating that we're going to see between four and six major 
hurricanes this year. And those are hurricanes between Category 
3 and 5. If one of these makes landfall in the United States, 
it will have a devastating impact on the communities that it 
hits. And while NOAA generally did an excellent job last year, 
there are still some areas that give me concern.
    Our emergency managers and first responders, represented by 
the two gentlemen sitting next to Mr. Mayfield, need to know 
not only where the storm is going to go, but how strong the 
storm is going to be. Without an accurate prediction of its 
intensity, emergency managers do not know what counties they 
need to evacuate, or what levels of resources they need to 
marshal, to be ready. If we overestimate the strength of a 
storm, too many people are evacuated, and the job of managing 
evacuations for the Coast Guard--or, for the National Guard--
becomes much more difficult. If we under-estimate the storm, 
and people are stranded in their homes, and--local emergency 
managers end up having to rescue thousands, as we saw in 
Louisiana, who otherwise might have been evacuated.
    I'm particularly concerned about this issue, because NOAA 
has shown little progress in improving the quality of its 
intensity forecasts. They stated earlier that they've shown 
about a 1 percent annual improvement in their hurricane 
intensity forecasts over the last decade. Now, this is nowhere 
near the dramatic improvement in hurricane tracking and nowhere 
near the level of accuracy our communities need to be safe.
    My nightmare scenario, and one I think is shared by our 
witnesses, and probably my colleagues, is that citizens in a 
city like Charleston would go to sleep one night with a weak 
Category 1 storm off their shores, and wake up in the morning 
with a Category 3 storm bearing down on the city and few people 
having been evacuated. As you can imagine, the consequences 
would be devastating.
    Again, I want to thank our witnesses for appearing this 
afternoon.
    And I ask Senator Nelson if he would like to make an 
opening statement.

             STATEMENT OF HON. E. BENJAMIN NELSON, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Ben Nelson. Thank you, Mr. Chairman. And, first of 
all, I thank you for bringing us together with this hearing 
today. And it's a pleasure to work with you.
    And I'm not superstitious, but, last time, we talked all 
about it, and then things happened. I don't want to create a 
self-fulfilling prophecy. But the only way to avoid that, 
apparently, is through preparedness and response. So, I hope 
that's where we'll be heading up.
    But, given the hurricane season that we endured last year, 
this hearing has to be of great interest to a number of people, 
so I look forward to hearing from Mr. Mayfield about what we 
can expect in the next few months, and from the other witnesses 
about how well, or how we, in Congress, can be helpful in 
preparing for this hurricane season.
    In the hearings we held last year, in particular--on severe 
weathers, but particularly--weather conditions--but 
particularly hurricanes, much of the discussion did, in fact, 
focus on preparedness, and getting people to respond 
appropriately to the warnings. And so, I'm interested in 
hearing from Mr. Mayfield today about how he thinks we're doing 
on improving hurricane forecasts, because advance information, 
accurate information, is obviously extremely important to 
preparedness for the appropriate response, as well.
    Are we getting more reliable, as far as predicting a track 
that you would decide that a hurricane's going to lead and 
take, as well as the intensity that it'll have when it makes 
landfall? Knowing the intensity and the location are critical 
points that must be improved.
    I'm also interested to hear from the witnesses about any 
insight they have as to what impact they think last year's 
devastating hurricanes will have on how people in the 
hurricane-prone areas react to hurricane warnings, also whether 
the experience of last year has impacted how communities, and 
the governments of those communities, and the business and 
other leaders in that community, are preparing for this year's 
season.
    So, we've got the upcoming hurricane season, something that 
concerns us all. I look forward to hearing the thoughts, and 
say, to General Spears, I suspect you know the Adjutant General 
from Nebraska, Roger Lempke, a personal friend of mine, and his 
predecessor, who was the Adjutant General during my 8 years as 
Governor, Stan Heng. And one of the first things I learned when 
I went to the new-Governor school, before I took office, was to 
meet with the emergency management people, Colonel Fran Layden, 
as well as General Heng, to be sure we had in place--we weren't 
worried about hurricanes, but, you know, there are other 
disasters that befall a State like Nebraska, land-locked, and 
we were prepared as best we could for it. We never got out-
stripped of our resources, although at times we were stressed. 
So, I know, from your perspective, you're looking to be 
prepared for the worst, but also hope for the best.
    So, thank you very much.
    Thank you, Mr. Chairman.
    Senator DeMint. Senator Bill Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Bill Nelson. Thank you, Mr. Chairman.
    I'll just say to the--General Spears--as you know, the 
Florida Guard, under General Burnett--we are extremely 
experienced in hurricanes, and--we don't wish to be, but we 
are--and the good thing about the Florida Guard is that when 
another State needs our Guard, because we are so experienced, 
our Guard is very generous with their time, and their 
resources, to go out and help other states. And I hope your 
state doesn't need our assistance, but we're ready, in whatever 
state that does.
    I just want to say, Mr. Chairman, that there are a few 
things, going into this hurricane season, that we have got to, 
in this Senator's opinion, focus on for NOAA, to help them out. 
Now, last year, Senator Stevens really helped us, in that we 
got the National Hurricane Center six additional positions, 
which Max Mayfield desperately needed so that he can train-up 
this crop of new specialists. And they are in place, and 
they're ready to go.
    What they desperately need now is--in NASA terminology, we 
have a single-point failure about to happen, and that is, we've 
got one G4 that flies above the hurricanes at 40 to 47,000 
feet, and the sonde packages with a drogue chute that goes all 
the way to the surface of the water. They get the measurements 
in the entire column of air, much of which, at that higher 
altitude, gives us an indication on the steering currents, 
which has increased their accuracy so much in the predictions. 
And I say ``single-point failure,'' because if that G4 has an 
accident, or if it is down for maintenance, there's nothing up 
there flying. And Mr. Mayfield can tell you, with extraordinary 
charts, as well, just compare the accuracy, if the G4 is flying 
and when it's not, on the predictions of a hurricane.
    The other thing that NOAA needs is that--the overall 
accuracy in the last two or three decades of predicting the 
path of a hurricane, and its intensity, has exponentially 
increased the accuracy by the computer modeling. The mortality 
due to hurricanes since the 1950s has been cut by 90 percent as 
a result of the increased accuracy of the predictions. And 
today's 5-day forecast on hurricanes is as accurate as the 3-
day forecasts were 15 years ago.
    And so, what we need to do is to help NOAA set up a 
computer modeling group, a group of about six people, that 
would be dedicated to computer modeling, the absolute state-of-
the-art, that then could augment the National Hurricane Center.
    And the final thing that I'll say is, on the other end of a 
hurricane is a consequence that is devastating, and that is in 
the insurance marketplace. And we are finding that out clearly 
along the Mississippi and Alabama coast right now as they are 
sorting through that question, was it wind or was it water that 
destroyed all of those structures?
    I will be offering, by tomorrow, a package of bills drawing 
on my experience as the elected Insurance Commissioner of 
Florida during the 1990s, and the approach that we took when I 
was handed the aftermath of a paralyzed insurance marketplace 
in the entire State of Florida in the aftermath of Hurricane 
Andrew. And drawing on that experience, I'm going to make 
suggestions to the Senate, and will invite people to join as 
cosponsors as you see this package of bills that I'll be 
offering, as we come into this hurricane season. And that's on 
the question of, what is the role of the Federal Government to 
do as a backup to the State insurance systems in order to keep 
this system whole, and to keep it affordable for the average 
homeowner.
    Thank you, Mr. Chairman.
    Senator DeMint. Thank you.
    Senator Vitter.

                STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman. And thank you, 
again, for holding this hearing on this very important issue, 
coming into this hurricane season, hurricane prediction and 
preparedness.
    As you said, about 11 months ago, you had a similar 
hearing, and we heard from Max Mayfield and others, and we 
discussed the concern that hurricane protection systems and 
infrastructure, particularly in south Louisiana, were 
inadequate. And we actually described what a scenario might 
look like if the big one hit. And there has never been a case 
where I've been sadder about being proved right, in terms of 
the discussion that was here in the Subcommittee.
    Three months later, Katrina devastated the Gulf Coast. Less 
than a month after that, we got a second punch with Hurricane 
Rita in southwest Louisiana and east Texas.
    Coming out of all that experience, I first want to say 
thank you to the American people for their generosity, in terms 
of an enormous and historic response. It really was 
overwhelming in so many ways, so I really want to thank 
everyone--the American people, a lot of private churches, 
foundations, other groups--for all of their work.
    And, Mr. Chairman, you're exactly right, there were some 
good-news stories even including in the Federal Government. 
And, you're right, the Coast Guard was absolutely one. They did 
heroes' work from the beginning to the end, did their job 
magnificently.
    And, happily, we have another such good-news story here 
today--namely, the National Hurricane Center. Max Mayfield and 
his center did great work. It literally saved thousands of 
lives. A lot of folks don't realize all that goes on behind the 
scenes on the prediction models that Max's team produces, but 
that model, that prediction, his personal calls to the Governor 
and the Mayor and others, absolutely saved thousands of lives. 
And their prediction of the track of Katrina was amazingly 
accurate 56 hours before the storm came ashore. So, we thank 
you for that great work.
    Unfortunately, you know, there are some other examples of 
performance that are on the other end of the spectrum. 
Everybody knows about FEMA problems, but, also, I've been very 
frustrated, quite frankly, with the response of the U.S. Army 
Corps of Engineers. Most recently, they have announced that 
their top, top priority work, which was supposed to be done by 
June 1 of this year for this hurricane season, is not going to 
be done by then, will only be done well into the hurricane 
season.
    Mr. Chairman, I have to tell you, if this had happened in 
the private sector, with regard to what happened in the Corps, 
the managers would have been fired, and hundreds of billions of 
dollars in lawsuits would have been filed to recover losses. 
But, because it's the Federal Government, we basically rehire 
the same company. And, unfortunately, they're using some of the 
same processes that have let us down in the past. And so, the 
emergency supplemental, as well as a water bill, really have to 
be passed immediately. We need these statutory changes, and 
more institutional changes, to follow as soon as possible.
    I look forward to this hearing, following up on last 
year's, and look forward to what more we can do to increase 
hurricane preparedness, as well as response issues.
    Thanks to all the witnesses.
    Senator DeMint. Thank you, Senator Vitter.
    And, Senator Lott, if you would give us your opening 
statement, and then introduce your witness, General Spraggins.

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Well, thank you very much, Mr. Chairman.
    And I won't be long, because I want to hear what this very 
important panel has to say.
    I want to say, with regard to, Senator Nelson, I'll be 
interested in looking at your package of bills that you think 
maybe helpful, and will be very interested in your thoughts. 
You are from our neighboring state and have a little experience 
with hurricanes and disasters.
    And I would say that there really is no debate about 
whether we got hit by wind or water. The answer is yes, both. 
The problem is, we're having trouble getting the insurance 
industry to acknowledge the wind side of it.
    But sustained winds of 140, with gusts of 160 to 170, 
probably wouldn't do any damage to my house on the Gulf before 
the storm wave came. So, don't get me started on that.
    Thank you, Mr. Chairman, for having this hearing. And I 
want to thank the panel. I'll be interested in hearing what 
they have to say.
    Mr. Mayfield, we appreciate the work you do. You don't look 
as good in person as you do on TV----
    [Laughter.]
    Senator Lott--no, seriously, we appreciate what you do. 
And, Senator Vitter is right. You warned us, and you saved 
millions of lives. And we had a tremendous evacuation, and 
still had tremendous devastation and 1,500 lives lost. Just 
think what it could have been if we had not known the 
seriousness of it.
    I've been very proud, frankly, of my own state's local, 
county, and State officials. Our Governor of Mississippi called 
me on Saturday before the hurricane hit on Monday and said, 
``I'm having trouble with a particular mayor putting out the 
emergency declaration urging people to leave.'' He didn't want 
to do it. He had just been on the job 5 months as mayor, and he 
was hesitant to say, ``Evacuate.''
    I'm sure the Governor was talking to the Hurricane Center 
and then called me, because he knew this guy is a friend of 
mine, and I called and said, ``You've got to get people out of 
there.'' General Spraggins knows exactly where I'm talking 
about.
    I'm really honored to be able to introduce the first 
panelist here, Brigadier General Benjamin Spraggins. We've had 
a relationship for many years, and are good friends. I have a 
nickname for him, ``Jesse James,'' which I must say, General, I 
shouldn't explain to this panel why I call you that. But he has 
been a real leader in our State. He's commanded the Air 
National Guard unit on the Gulf Coast. He's been in top 
leadership positions in our National Guard in Mississippi, 
statewide. He headed the unit temporarily at Meridian, 
Mississippi, I believe. And then, the day of the hurricane, was 
the first day on the job, his new job as the Harrison County, 
Mississippi, Director of Emergency Management and Homeland 
Security.
    But he has done an outstanding job with our National Guard, 
and now in his new role there in Harrison County, which is 
where Biloxi and Gulfport are located. Probably several of you 
have been there to see the devastation. He and that county have 
done a wonderful job, and I'm very proud of them.
    You mentioned what a great job, Senator Vitter, the Coast 
Guard did, but let me tell you what, our National Guard in 
Mississippi did a wonderful job, too. I mean, General 
Spraggins' old airbase headquarters is where we all assembled 
in the immediate aftermath of the hurricane. Our Mississippi 
Army National Guard was pre-positioned about 70 miles north of 
the coast, at Camp Shelby. As soon as the winds died down, they 
started moving, I think, about 6:30 or 7:00, and I think they 
got there at 3:00 or 4:00 in the morning. They had to literally 
cut their way through, and it took them, I guess, 8--6 or 8 
hours to get 70 miles, to show you how difficult it was. But 
they were on the spot the next morning.
    So, General Spraggins, thank you for what you have done. 
Thank you to the National Guard. Our military served us well, 
Senator Vitter. The Coast Guard did a marvelous job. The 
National Guard did a great job. And it wasn't just Mississippi. 
When I met with general Spraggins and others--and General 
Cross, our adjutant General in Mississippi--on Wednesday 
morning, in Gulf Port, Mississippi, the Guard units were 
already there from Alabama and, I believe, Tennessee and lots 
of others on the way. And it's one of the success stories for 
which we haven't given enough credit.
    Having said that, Mr. Chairman, I know we've got a lot to 
learn from these people. We need to think, more than we have, 
and be prepared legislatively and administratively to do more 
to prevent disasters, predict disasters, and to deal with them 
after they occur.
    So, thank you very much, Mr. Chairman.
    Senator DeMint. Thank you, Senator.
    Before I introduce the last two witnesses, Chairman Stevens 
has joined us.
    Mr. Chairman, would you like to make an opening statement?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. I'd be pleased if you'd put my statement in 
the record, Mr. Chairman. I'm sorry to be late, and I'm 
delighted to be here to hear these witnesses give us these 
predictions.
    Thank you very much.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    Thanks, Senator DeMint, for holding this hearing; I was one of 24 
Senators to visit the Katrina-affected region of the Gulf, and I know 
full well the devastation a major hurricane can cause. That is why 
Senator Inouye and I created this subcommittee, so we can look at what 
we can do to better predict natural disasters, and understand how we 
can mitigate the damages of property and lives lost.
    This is the Atlantic hurricane forecast that NOAA sent out on 
Monday to the American people. I have had my staff search for two days 
to find the Alaskan Storm forecast, but none exists. I hope it is that 
we don't have enough weather data or satellite coverage in Alaska to 
plug into computer models that predict these weather trends, and NOT 
that Alaskan storms are not a priority to NOAA. We get storms just as 
bad as the Atlantic does, you know.
    Now, the Federal Government failed in its response to Katrina, but 
I think we can all agree that NOAA did a great job of predicting the 
path of the hurricane. Fifty-eight hours before landfall, Mr. Mayfield 
and the National Weather Service predicted the path of Katrina within 
12 miles.
    I thank you all for your testimony.

    Senator DeMint. Thank you, sir.
    I'd like to introduce General Stan Spears, who leads our 
Guard in South Carolina. Stan, I'm not sure if it's true or 
not, but we say, in South Carolina, you are the highest ranking 
elected military officer in the country.
    He is an elected general to head the National Guard there, 
and he's done a great job. He leads and directs the 10,500-
member South Carolina Army and Air National Guard. Among his 
many decorations are the Distinguished Service Medal and the 
Order of the Palmetto, which is South Carolina's highest 
civilian nonmilitary honor.
    The National Guard plays a crucial role in the preparation 
for, and response after, a storm. And I know General Spears is 
going to have some useful, important insights this afternoon. 
And I look forward to his comments.
    And I'd also like to introduce Mr. Max Mayfield, who needs 
no introduction on this committee. He's Director of NOAA's 
National Hurricane Center. Mr. Mayfield is the face of the 
Weather Service when a hurricane is threatening to make 
landfall in any neighborhood in this country. He's also the guy 
responsible for a lot of the lives being saved before Katrina 
last year.
    While the work of his crew down in Miami may not be as 
flashy as plucking people off of rooftops in helicopters, the 
fact that they got the prediction right, and Mr. Mayfield 
personally picked up the phone and called two Governors, a 
mayor, and a State emergency manager, saved countless lives.
    Mr. Mayfield, I'd like to start with you. You can talk 
about the season, what we expect, and I think you'll also talk 
about some potential serious-damage areas that could occur in 
some parts of the country we might not suspect. And then we'll 
talk to the folks who help us clean up after your storm.

         STATEMENT OF MAX MAYFIELD, DIRECTOR, TROPICAL 
         PREDICTION CENTER/NATIONAL HURRICANE CENTER, 
     NATIONAL WEATHER SERVICE, NOAA, DEPARTMENT OF COMMERCE

    Mr. Mayfield. Thank you, and good afternoon, Mr. Chairman 
and members of the Committee.
    I am Max Mayfield, Director of the Tropical Prediction 
Center and National Hurricane Center. The National Hurricane 
Center is part of the National Weather Service of the National 
Oceanic and Atmospheric Administration in the Department of 
Commerce.
    I thank you for inviting me here today, during Hurricane 
Preparedness Week to discuss the outlook for the 2006 hurricane 
season, and to talk about some of our Nation's cities and 
communities which are particularly vulnerable to the effects of 
a hurricane.
    Last year's hurricane season set records for the numbers of 
hurricanes and tropical storms. However, whether we're 
predicting an above-average hurricane season, like we are this 
year, or a below-normal season, such as in 1992, the crucial 
message is the same: prepare, prepare, prepare. It only takes 
one powerful hurricane, like Andrew or Katrina, to expose our 
vulnerabilities.
    First, let me express my sincere gratitude to the members 
of this committee. Your continued support of NOAA and our 
hurricane programs enables us to make the best forecast 
possible, and to help protect lives and livelihoods.
    There is very high interest among the media, the public, 
and the research community in this upcoming hurricane season. 
People want to know how many hurricanes there will be and the 
chances of one hitting their area. This attention generates 
needed awareness about the potential effects of the hurricanes, 
and it helps ensure people take the right actions at the right 
time.
    The official hurricane season begins June 1 and runs 
through November 30. The average peak of activity occurs with 
the warmest water temperatures, from the middle of August to 
near the end of October.
    NOAA's official prediction for the 2006 hurricane season is 
for 13 to 16 tropical storms, with 8 to 10 of those storms 
becoming hurricanes. Of those, we predict 4 to 6 of them will 
be major hurricanes, what we call a Category 3 or higher, 
packing winds over 110 miles per hour. These Category 3 storms 
are the ones likely to cause the most extensive damage. In this 
hurricane season, we're predicting an 80 percent likelihood of 
an above-average number of storms in the Atlantic Basin, and 
that's the highest probability that we have ever predicted in 
our May outlook. This high degree of confidence comes from many 
favorable conditions, including the warmer sea surface 
temperatures in the Atlantic Basin, combined with low wind 
shear, lower surface pressures, and an African easterly jet 
stream. Many believe these favorable conditions, which came 
together around 1995, are part of a multi-decadal climate 
pattern, which last peaked in the 1950s and 1960s and could 
last for another 10 to 20 years.
    While I acknowledge the ongoing scientific debate about the 
impacts of climate changes on hurricanes, I am focused on this 
upcoming hurricane season and the importance of being prepared.
    While hurricanes can affect the entire coast from Texas to 
Maine, I want to highlight a few communities and coastal 
regions particularly vulnerable to a hurricane; because they 
have a large population, are difficult to evacuate, or a 
combination of both. These Areas include New York City, Long 
Island, Houston/Galveston, Tampa Bay, the Florida Keys, Miami, 
and, believe it not, New England. And, let's not forget, just 
because the Central Gulf Coast States were hit last year does 
not mean it will not happen again. New Orleans remains 
especially vulnerable to future hurricanes.
    I want to call your attention to New York City. In the last 
20 years, two hurricanes have passed east of the city--Gloria, 
in 1985, and Bob, in 1991. We need to ask, what if those storms 
were stronger, and hit the New Jersey coast? NOAA's Sea, Lake, 
Over Land Surge from Hurricanes, or a SLOSH, model shows a 
Category 3 hurricane producing a storm surge of over 25 feet in 
some sections of the New York City area. The black line that 
you see on the animation beside us here depicts the 
hypothetical track of that hurricane. And, like New Orleans, it 
is not a question of ``if,'' but ``when'' this scenario will 
occur. I know that's up there for a very short period of time, 
but basically everything in green there represents storm surge 
of over 25--of over 20 feet, with maximums over 25 feet.
    A large fast-moving Category 5 storm would inundate the 
Houston/Galveston area, with a storm surge of over 30 feet. And 
a large Category 5 storm, not unlike Katrina, will flood areas 
surrounding Tampa Bay with over 20 feet. Everything you see in 
green has over 20 feet of storm surge. Strong waves on top of 
the storm surge would cause catastrophic flooding in the areas 
shown here.
    While these are just a few of the more vulnerable areas, I 
must emphasize that any city or community along the coast can 
be devastated by a hurricane. And a hurricane is not just a 
coastal event. The strong winds, heavy rains, flooding, and 
tornados from weakening tropical storms can spread well inland. 
The damage created can hinder preparation and evacuation 
efforts, and lead to increased loss of property and life.
    Hurricane Hugo, that you're seeing up here now, which hit 
South Carolina in 1989, made landfill just north of Charleston. 
The storm surge was up to 20 feet just north of the city in 
that Cape Romain area, where not many people live. The effects 
of Hugo reached far inland, with flooding rains, and storm, and 
strong winds knocking down trees and disrupting power supplies 
for over a month in some areas.
    While NOAA has made great strides in improving the accuracy 
of our hurricane track forecast, much more work needs to be 
done, especially on intensity forecasts. And we've been very 
honest about that. NOAA has asked outside experts to review our 
research and our programs to improve our ability to forecast 
intensity.
    We also continue to test new products and models to improve 
our overall hurricane forecast. We intend to introduce a new 
hurricane modeling system, called the Hurricane Weather 
Research and Forecasting Model, being developed by the National 
Centers for Environmental Prediction. We appreciate Congress's 
support for this effort, and its overall support for the 
satellites, the aircraft, the buoys, and the people who make 
these crucial forecasts possible.
    As you look at this last graphic, I think you'll understand 
our Nation's vulnerability to hurricanes. Those red lines show 
the tracks of all the tropical storms and hurricanes, going 
back to 1851. And we made the lines as thin as we could, and 
you still can't even see the coastline.
    While NOAA will continue to do its best to provide as much 
possible warning, it is my hope that each family, each 
business, and each community on or near the coast will develop, 
and be able to execute, a hurricane preparedness plan. We must 
all be ready to protect our lives and property from the power 
of hurricanes.
    Thank you for your time today.
    [The prepared statement of Mr. Mayfield follows:]

   Prepared Statement of Max Mayfield, Director, Tropical Prediction 
   Center/National Hurricane Center, National Weather Service, NOAA, 
                         Department of Commerce
    Mr. Chairman and Members of the Committee, I am Max Mayfield, 
Director of the Tropical Prediction Center/National Hurricane Center. 
The National Hurricane Center is a part of the National Weather Service 
(NWS), of the National Oceanic and Atmospheric Administration (NOAA) in 
the Department of Commerce. Thank you for inviting me here today, 
during National Hurricane Preparedness Week, to discuss the outlook for 
the 2006 hurricane season, and to talk about our country's cities most 
vulnerable to hurricanes.
    First, let me express my sincere gratitude to the members of this 
committee. Your continued support of NOAA and our hurricane program 
enables us to make the best forecasts possible, helping ensure the 
people of our Nation understand the potential impacts from hurricanes, 
and what they can do to protect their life and property. The FY 2006 
Hurricane Supplemental Funding approved by Congress is being used as 
directed, including funding forecast model improvements, and storm 
surge and inland hurricane forecasting improvements. Thank you, again, 
for your support.
    Everywhere I go, I am asked about the forecast for the upcoming 
hurricane season. People want to know how many hurricanes there will be 
and if one will hit their area. The media also gives these seasonal 
forecasts high visibility, and this can have a very positive effect, 
because it raises awareness about the threat from hurricanes, and 
encourages people to prepare for what might happen.
    The official hurricane season is from June 1 through November 30, 
with the average peak of hurricane activity occurring with the warmest 
water temperatures, from mid-August to late October. NOAA's prediction 
for the 2006 Atlantic hurricane season is for 13-16 tropical storms, 
with 8-10 becoming hurricanes, of which 4-6 could become major 
hurricanes. A major hurricane is a storm Category 3 or higher on the 
Saffir-Simpson hurricane scale, with winds greater than 110 miles per 
hour. Major hurricanes cause about 80 percent of the damage sustained 
from tropical cyclones. We are predicting an 80 percent likelihood of 
an above average number of storms in the Atlantic Basin. Our forecast 
for this season is based primarily on the continuing multi-decadal 
signal in the global tropics. This year, the signal indicates favorable 
atmospheric (location and strength of upper and lower atmospheric wind 
and pressure patterns with their associated vertical and horizontal 
wind shears) an oceanic (warm sea surface temperatures) conditions for 
hurricane formation.
    Last year was a record setting hurricane season with 28 storms and 
15 hurricanes, of which 7 were major hurricanes. We know all too 
vividly the destruction and devastation hurricanes can cause. That is 
why it is important not to focus only on the total number of storms. It 
takes only one hurricane landfall to make for a bad year. A relatively 
quiet season does not mean there will be no problems. Let's recall 
1992. That year was below average in the number of storms, but 
catastrophic for southern Florida because of Hurricane Andrew. No one 
can tell us reliably months in advance when or where the hurricanes are 
going to strike. The state of the science is simply not advanced enough 
at this time to do that. The bottom line is that all coastal states 
from Texas to Maine, Hawaii, and other U.S. interests in the Pacific 
and the Caribbean are vulnerable.
Vulnerable Communities
    While all coastal communities can suffer the catastrophic impacts 
from hurricanes, there are a few areas particularly susceptible to the 
effects from a land-falling hurricane. These areas are uniquely 
vulnerable due to their large population, and/or the length of time it 
would take to evacuate people out of harm's way. Houston/Galveston, 
Tampa Bay, southwest Florida, Florida Keys, southeast Florida, New York 
City/Long Island, and believe it or not, New England, are all 
especially vulnerable. And let's not forget, just because a hurricane 
struck the central Gulf Coast states last year, does not mean it will 
not happen again--New Orleans remains vulnerable to future hurricanes.
    We work year-round with Federal, state, and local emergency 
managers; we educate them about weather impacts from hurricanes, and 
they educate us about response issues and their challenges. It is a 
constant learning process, and the key is working together to ensure 
the public takes appropriate action. Most preparedness activities and 
outreach takes place outside hurricane season. Just three weeks ago, I 
finished a Hurricane Awareness Tour along the Gulf Coast states to help 
raise awareness about the potential impact from hurricanes. The NWS 
forecast offices arrange the tour events with the Federal Emergency 
Management Agency, local governments, emergency managers, schools, the 
public, and the media in a team effort to increase hurricane awareness 
and encourage preparedness in this vulnerable area of the Nation. 
During land-falling storms, it is essential for the emergency 
management community and the weather community to have one message for 
the public, so people can take appropriate action. Nowhere is this more 
critical than in areas most vulnerable to the impact from hurricanes.
    Let me elaborate further on vulnerabilities and first look at the 
New York City area. In the past two decades, two hurricanes passed near 
New York City--Hurricane Gloria on September 27, 1985, and Hurricane 
Bob on August 19, 1991. Each hurricane was moving north-northeastward. 
Gloria moved inland across Long Island and struck at low tide, so the 
storm tide (a combination of storm surge and astronomical tide) was not 
as high as it could have been. In contrast, Bob skirted Long Island and 
impacted Rhode Island and Massachusetts. Bob struck at high tide 
resulting in more damage. The New England Hurricane of 1938 also made 
landfall on Long Island on a northward track and was moving at about 60 
miles per hour as it made landfall as a Category 3 storm. This speed 
caused an unusually rapid deterioration of conditions and allowed less 
time for preparation than normal. Storm surges of 10 to 12 feet 
inundated portions of the coast from Long Island and Connecticut 
eastward to southeastern Massachusetts, with the most notable surges in 
Narragansett Bay and Buzzards Bay.
    What if those storms were stronger and headed northwest and hit the 
central New Jersey coast? NOAA's storm surge model, SLOSH (Sea, Lake, 
Overland Surge from Hurricanes), indicates a Category 3 hurricane could 
produce a storm surge raising water levels over 25 feet (slide 1) above 
mean sea level in some locations in the New York City area. The slide 
shows the surge from a hurricane moving along the black line making 
landfall in New Jersey. It is not a question of if a major hurricane 
will strike the New York area, but when Fortunately, this is not news 
to New York emergency managers. They have been working with NOAA to 
plan for this type of disaster for two decades. They know it will 
happen, maybe this year, maybe next, maybe one hundred years from now--
but it will happen and they are planning for it.
    Let me talk briefly about a few other areas. A large, fast moving 
Category 5 storm can inundate the Houston/Galveston area with a storm 
surge over 30 feet (slide 2), while a large (size of Katrina) northeast 
moving Category 5 storm would flood some sections of the Tampa Bay area 
with over 20 feet of water (slide 3). Strong winds with the storm will 
produce large waves on top of the storm surge, and potentially 
catastrophic flooding in these areas. The Florida Keys is another area 
particularly vulnerable to hurricanes. The Keys sit only a few feet 
above sea level, and there is only one way in and out of the region. 
This escape route floods well before the hurricane strikes, and it 
takes about 48-72 hours to evacuate the region. Although emergency 
managers in the Keys recognize the potential impacts, it is still 
difficult to get people to take appropriate actions. Almost all of the 
Keys could be covered by water from an approximate 12 foot surge 
accompanying a Category 5 hurricane moving west to east across southern 
Florida (slide 4).
    The next slide shows potential storm surges for other particularly 
vulnerable areas--southwest Florida near Fort Myers can have a surge 
over 20 feet (slide 5); a 15 foot surge could impact southeast Florida 
(slide 6); and New England could see about 20 feet of water along the 
coast (slide 7). And let's not forget what can happen in New Orleans 
with a Category 5 storm, flooding the city with a 20 foot surge (slide 
8) meaning that some areas well below sea level could be under 30 feet 
of water.
    While I specifically mentioned a few areas that are particularly 
vulnerable, let me emphasize that anywhere along the coast can be 
devastated by a hurricane. Just remember Hurricane Hugo, which hit 
South Carolina in 1989, making landfall just north of Charleston. The 
storm surge was large, up to 20 feet just north of Charleston (slide 
9). The impacts of Hurricane Hugo reached well inland, with many 
portions of South Carolina and North Carolina devastated by heavy rain 
and strong winds, knocking down trees and disrupting power supplies for 
over a month in some areas.
    We have observed that steering patterns for major hurricane 
landfalls can sometimes persist over several years. For example, during 
the 1940s many major hurricanes hit Florida (slide 10). During the 
1950s, many major hurricanes hit the U.S. East Coast (slide 11). During 
the 1960s, many storms hit the central and western Gulf Coast (slide 
12). This pattern might lead one to assume that--given the recent major 
hurricanes like Charley, Ivan, Jeanne, Dennis, Katrina, Rita, and Wilma 
in 2004 and 2005 (slide 13)--Florida and the Gulf Coast are likely 
targets again this season. However, in each of these decades there were 
exceptions. For example, in the 1940s, while most storms hit Florida, 
two made landfall in the Gulf and one made landfall in New England. In 
addition, in the 1930s (slide 14) major land-falling hurricanes were 
relatively well distributed along the U.S. coastline--hitting the U.S. 
coast from Texas to New England. Consequently, while it is possible to 
observe these trends and make generalizations based upon these 
observations--it is important to understand that in any given year, a 
hurricane can impact any part of the U.S. coastline from Texas to 
Maine. The coastal communities along the Gulf and East Coasts (in 
addition to Hawaii and other interests in the Pacific and Caribbean) 
remain at risk for hurricanes, and the public must be prepared to 
respond if a situation arises.
    It only takes one hurricane over a given community to make for a 
bad year. In 1983, there was only one land-falling hurricane in the 
United States, but it was Category 3 Hurricane Alicia that hit the 
Galveston/Houston area (slide 15). And in 1992, we only had one 
hurricane make landfall in the United States, but that was Category 5 
Hurricane Andrew that hit southern Miami-Dade County, Florida (slide 
16).
    The message from NOAA is very consistent. We want every individual, 
every family, every business and every community on or near the coast 
to have a hurricane preparedness plan and have it in place before the 
hurricane season gets here. But I also want to go beyond the seasonal 
forecast for this coming year and focus on something I think is even 
more important. The research community is telling us we are in an 
active period for major hurricanes that could last another 10 to 20 
years or more. Again, the message is clear. We all need to be prepared.
NOAA Efforts to Improve Hurricane Predictions
    NOAA is focused on improving hurricane track, intensity, storm 
surge, and rainfall predictions. The accuracy of NOAA's hurricane 
forecasts is closely tied to improvements in computer-based numerical 
weather prediction models. This year NOAA implemented advances in its 
hurricane forecasting model that are expected to yield improved track 
and intensity guidance for our forecasters. This hurricane forecasting 
model was developed by the Geophysical Fluid Dynamics Laboratory in 
NOAA's Office of Oceanic and Atmospheric Research (OAR), and 
incorporated into operations at NWS's National Center for Environmental 
Prediction (NCEP). NOAA's central computer system will be upgraded in 
FY 2007 to increase computational speed, memory, and storage 
capabilities. This allows more sophisticated numerical models to run 
and make use of available data, including data from NOAA's polar 
orbiting and geostationary satellites. Significant improvements in 
intensity, precipitation, and wind distribution, forecasting are 
expected from the next-generation operational modeling system.
    Predicting hurricane intensity remains one of our most difficult 
forecast challenges. We are all aware of the improvements made in 
predicting hurricane track forecasts and this has been where NOAA and 
the research community have, in the past, placed their emphasis. Within 
the past few years, the emphasis on improving intensity prediction has 
increased. Leading the way, in FY 2007 NOAA plans to introduce a new 
hurricane modeling system, called the Hurricane Weather Research and 
Forecasting model (HWRF), which is being developed by NCEP's 
Environmental Modeling Center. Congress supported this effort in the FY 
2006 Hurricane Supplemental Funding, and HWRF implementation and 
development is included in the FY 2007 President's budget request. The 
HWRF will be a coupled atmosphere-ocean prediction system that will 
take advantage of the latest atmosphere and ocean observations, the 
most advanced methods to analyze those data and state-of-the-art 
physics to produce our Nation's next-generation hurricane forecast 
system. Once the HWRF becomes operational, our goal is to improve 
hurricane intensity predictions by about 30 percent by 2015.
    NOAA's Atlantic Oceanographic and Meteorological Laboratory (AOML) 
also conducts research to better understand internal storm dynamics, 
and interactions between a hurricane and the surrounding atmosphere and 
ocean. AOML's scientists provide data and information to operational 
NOAA forecasters and models. Through a greater understanding of 
physical processes and advanced hurricane modeling, NOAA continually 
improves models for predicting hurricane intensity and track, in 
collaboration with Federal partners, academic researchers, and 
commercial enterprises.
    To help guide future research efforts, NOAA's Science Advisory 
Board commissioned a Hurricane Intensity Research Working Group to 
provide recommendations to the Agency on the direction of hurricane 
intensity research. The Working Group expects to transmit its final 
report to the Science Advisory Board in July 2006. The National Science 
Board of the National Science Foundation has also convened a working 
group of external advisors to review hurricane science and engineering. 
The final report from this group is scheduled to be submitted to the 
National Science Board in August 2006. Recommendations from these 
reports will be carefully considered by NOAA as we plan our efforts to 
improve our operations and predictions.
Aircraft Reconnaissance Data
    NOAA aircraft, the W-P3 Orions and the Gulf Stream IV, provide 
essential observations critical to the National Hurricane Center 
forecasters, and supplement the U.S. Air Force Reserve Command's 53rd 
Weather Reconnaissance Squadron flights. A specialized instrument flown 
on both of the W-P3s, the Stepped Frequency Microwave Radiometer 
(SFMR), was developed by NOAA researchers at AOML; and provides 
essential data on hurricane structure, surface wind and rain rate to 
hurricane forecasters. The SFMR allows forecasters and researchers to 
see fluctuations in hurricane intensity not observed before. The 
Military Construction Appropriations and Emergency Hurricane 
Supplemental Appropriations Act, 2005 (P.L. 108-324) provided $10.5M to 
the Air Force to outfit the complete fleet of Hurricane Hunters with 
this instrument. We hope the first of these additional units will be 
available toward the end of the 2006 hurricane season.
Conclusion
    The truth is, right now no one knows exactly what areas of the 
coast, or which states or locations within those states, if any, will 
be impacted by hurricanes in 2006. Could it be Florida, again? Maybe. 
How about New England or New York City? That's possible. But right now 
we just don't know.
    We also need to remember a hurricane is not just a coastal event. 
The strong winds, heavy rains, and tornados from weakening tropical 
systems can spread well inland and cause tremendous damage. Having said 
that, Katrina is a grim reminder that the greatest potential for large 
loss of life is from the storm surge near the coast.
    Now, please look at the last graphic (slide 17), which shows the 
tracks of tropical storms and hurricanes since 1851. I think most 
people can look at this graphic and understand that the United States 
is vulnerable to hurricanes. The bottom line is that all coastal states 
from Texas to Maine, Hawaii, and other U.S. interests in the Pacific 
and the Caribbean are at risk. Everyone along the coast, including 
inland communities that can be impacted by heavy rain and tornados 
associated with hurricanes, must be prepared to protect their lives and 
property in the event of a hurricane.

    Senator DeMint. Thank you, Mr. Mayfield.
    General Spraggins.

                 STATEMENT OF BRIGADIER GENERAL

                BENJAMIN J. SPRAGGINS, DIRECTOR,

          HARRISON COUNTY EMERGENCY MANAGEMENT AGENCY

    General Spraggins. Thank you very much. It's an honor to be 
here today, Mr. Chairman.
    No, it's not coming--there it goes. Okay. Sorry, sir.
    Mr. Chairman, distinguished members of the panel, it's an 
honor to be here today. I'm Brigadier General Joe Spraggins, 
the Harrison County Emergency Management Director.
    I think you know what happened in Harrison County on August 
29, 2005, and we don't have to reiterate that. Obviously, it 
changed our lives and changed what we're going to do, and what 
we will do in the future.
    We had a tremendous storm that hit us, but our recovery was 
because of a lot of great leadership. We had a great governor 
in Governor Haley Barbour, and Mr. Robert Latham, as the head 
of the Emergency Management, that stepped forward to help us do 
this, along with our National Guard that helped us in every way 
that we could--they ever thought of. They--we also had some 
strong leadership in the counties. We had five great 
supervisors in Harrison County, and then five great mayors that 
also stepped up to the plate; in being able to make the 
decisions to do what we needed to do.
    One of the things that made our evacuation plan in 
Hurricane Katrina so successful was because we had a unified 
command. We had a unified command with the mayors, and the 
supervisors, saying what we would do and how we would do it, 
and we would do it in unison, together. That's the first time I 
think this has ever happened in the history of the Harrison 
County area, but it worked out perfectly. Each one of us sat 
there together, made the decision to do what we needed to, to 
make sure that we saved as many lives as possible.
    Obviously, Mr. Max Mayfield and the Weather Service's 
advisories helped us make a lot of those decisions. We were on 
a regular conference call with them to try to get an update. 
Every time that they had anything possible to give to us, they 
gave it to us. We were able to use that, and use that for our 
evacuation.
    However, as much as we planned, as much as we trained, we 
weren't prepared for what was going to happen. So, we had to 
make some adjustments at the last minute. One of the things 
that I've talked to Mr. Mayfield about before, and it's a big 
issue of what happened, is, once Hurricane Katrina went from a 
Category 5 to a Category 3, a lot of people thought that they 
were safe. They thought they were safe, because they lived 
through Hurricane Camille in 1969. Their homes had been there 
for over 100 years. They never dreamed of a 25- to 30-foot 
tidal surge. So, they basically--once it downgraded, and--which 
is nothing other than the wind velocity of what caused it to 
downgrade--the tidal surge didn't. So, some way, somehow, if 
there's any way--and I know Mr. Mayfield's been looking at this 
many ways, and Mr. Gray--Dr. Gray and them--of ways of being 
able to do something, a way to be able to implement the surge 
in with the wind to give a category of a storm, because it's--
it has a--an effect on a lot of people.
    Our evacuation--basically a timetable of what we did is, we 
started meeting on the 24th of August, once we found out that 
there was a big storm in the--out in the Caribbean area. We 
started looking. We said, ``Hey, what are we going to do?'' We 
started talking about how to make sure that we were going to 
have a plan, in case it did happen. We met with the executive 
committees we call our mayors, supervisors, our sheriffs and 
our elected officials. We started--then on the 26th of August, 
we decided--at that time, Max and I had talked, and I had 
some--and talked with the Slidell Weather Service, which is a 
great organization, to give us information, and we decided it 
was time, then, that we needed to start an evacuation. So, we 
did. We started to initiate an evacuation to initiate our--
especially our assisted living, the ones who needed help there, 
and voluntarily.
    On the 27th of August, we made a mandatory evacuation of 
zone A's and low-lying areas. As we were very confident that 
Hurricane Katrina was coming somewhere in the Mississippi coast 
area.
    Senator Lott. Now, was that Friday or Saturday?
    General Spraggins. Saturday, sir.
    Senator Lott. Saturday before the hurricane, on Monday.
    General Spraggins. Yes, sir. It made its turn on, like, 
Friday night, I think, is--that they--when we made the decision 
and when it was actually turning that-a-way, even though Mr. 
Mayfield and them had been projecting pretty much in the same 
area the whole time.
    Then, on the 28th of August, we made a mandatory evacuation 
of zone A, B, and all low-lying areas, and strongly recommended 
the county, but, however, did not evacuate zone C and the 
county entirely. And the reason for that is, we would have put 
people in harm's way by taking people out of hospitals that 
were safe enough to be able to handle the storm and put them in 
harm's way by putting them in the ambulance to move them if 
they were in ICU conditions already. And I thank God we lost 
zero patients. Not one person died because of our maneuver 
there. And we will probably stick with that plan for the 
future.
    We're working now to try to find a way to correct every 
problem we had. And if you want to know problems, we had plenty 
of them. We had things that stepped up to us--that stepped up 
and said, ``Hey, what is going to happen next?''
    And, first off, right off the bat, we had problems with 
communications. We didn't have a clue of what to do, because we 
went back to the 1930s in communication. We had only a few 
operational pieces of equipment that would work around the 
storm time and after the storm, shortly after that, and that 
was mainly radio systems, that was like our 9-1-1 system, that 
worked, and some of this other link that came up shortly after 
that. But most of your cellular systems were out, and most of 
all of your--basically the 228 area code was basically gone for 
south Mississippi. So, we had to correct that.
    So, what we're doing is, we're correcting that, as far as 
the--as what we're going to do. We will correct it, and we have 
worked with cellular companies to be able to make sure that 
happens.
    We're also working with our shelters. We had inadequate 
shelters, because we didn't have any way to put--to place 
people where we needed to with the proper stuff, and we will 
correct that. And we also had a couple of other things, 
transportation being a big issue. We didn't have transportation 
for a single soul to leave south Mississippi that didn't have 
transportation. That transportation is in effect at this point, 
so we will be able to do it.
    I know that it was a big issue, and I know that there are a 
lot of things that went on, but I can tell you right now that 
south Mississippi is as prepared as it's ever been, and we will 
be a lot more prepared in the future, but we're ready for--if 
Mr. Mayfield's hurricane predictions come true, and they do 
have a storm in south Mississippi, we are prepared, and we will 
be ready for it.
    Thank you very much for your time.
    [The prepared statement of General Spraggins follows:]

    Prepared Statement of Brigadier General Benjamin J. Spraggins, 
         Director, Harrison County Emergency Management Agency
    Mr. Chairman and members of this distinguished committee:
    I greatly appreciate the opportunity to accompany this 
distinguished panel here today to testify before you regarding Harrison 
County preparedness and response to Hurricane Katrina, and the 
readiness for hurricane season 2006. The northeastern sector of the eye 
of Hurricane Katrina made landfall on the Mississippi Gulf Coast in 
Harrison County approximately 11:00 a.m. on the morning of August 29, 
2005. Hurricane Katrina arrived in Harrison County at Category 3 
strength, with maximum sustained winds over 130 mph. A storm surge 
estimated at 25 to 35 feet impacted most of the Mississippi Gulf Coast. 
Hurricane Katrina caused catastrophic damage throughout Harrison 
County, as well as surrounding counties and bordering states. Harrison 
County sustained significant damage to its infrastructure, critical 
facilities, residential, and business communities. County residents 
incurred a considerable loss of life and numerous injuries.
    Our state and county efforts to prepare for Hurricane Katrina, and 
our tremendous successes to recover are a result of great leadership 
from Governor Barbour, Mr. Latham, Mississippi Emergency Management 
Agency (MEMA), and the Mississippi National Guard. Their efforts to be 
proactive, pre- and post-storm has been a major factor to our success 
in Mississippi. The professionalism, leadership, and teamwork of 
Supervisors: Bobby Eleuterius, Larry Benefield, Marlin Ladner, William 
Martin, Connie Rockco and Mayors: AJ Holloway, Brent Warr, Rusty Quave, 
Billie Skellie, Billy McDonald, along with Sheriff George Payne and the 
Harrison County Incident Management Team, were and continue to be 
instrumental to the extreme success Harrison County has accomplished 
before, during, and after Hurricane Katrina.
    Planning for Catastrophic Natural Events. Being prepared for any 
natural disaster or catastrophic event includes extensive planning, 
training, and numerous exercises. Even though Harrison County had 
exceptionally trained and qualified personnel (except myself, as my 
first day on the job as Director of Emergency Management for Harrison 
County was August 29, 2005, a day I will always remember) and had 
participated in numerous exercises, we were not prepared for a 
catastrophic event of the magnitude of Hurricane Katrina. Even though 
we had experienced Hurricanes Camille, Frederick, Elena, and Georges 
over the past 36 years, the plans and shortfalls we had identified were 
not adequate to handle the massive destruction of this storm. Because 
of lessons learned from Hurricane Katrina I would like to expand on the 
following points:
    Evacuation. The determination to evacuate a specific area or the 
entire county can greatly impact the time and safety of effected 
citizens. The most affected areas are the low lying areas and 
Evacuation Zone A. As a rule of thumb, this area is evacuated for any 
hurricane, tropical storm, and possibly heavy rains. Evacuation Zones B 
and C are evacuated when the storm is expected to reach flood levels 
equal to or above this zone. Because of two tropical storms and 
Hurricane Dennis, the Mississippi Coast had already issued 
recommendations or mandatory evacuations of these areas three times 
prior to Katrina. The evacuation of the coast is a great expense to 
most families, and the decision to evacuate could affect their quality 
of life due to expense. The average cost to evacuate a family of four 
for three days to include lodging, food, and transportation could 
easily exceed $1000. Due to the damage of the East and West Bay bridges 
on Highway 90, the time to evacuate from Harrison County during the 
2006 season will be greatly degraded, causing more time and expense.
    The time table of events from 25 August, 2005 until Katrina 
landfall 29 August, 2005 were as follows:
2005 Evacuation Plan for Harrison County Mississippi Timeline
        24 August 2005--Meet with the Emergency Operations Personnel 
        from Gulfport, Long Beach, D'Iberville, Pass Christian, Biloxi, 
        and Harrison County. Initiated plan to evacuate Special Needs, 
        Assisted Living and Hospitals.

        25 August 2005--Made the decision to start evacuation of these 
        personnel by 26 August 2005 if the storm was still projected in 
        the Gulf of Mexico with special interest if the storm moved 
        further to the West.

        26 August 2005--Initiated the evacuation for the special 
        facilities and prepared for an Executive Meeting with the 
        Mayors and County Supervisors. Used AMR to move Ambulatory 
        Patients.

        27 August 2005--Mandatory evacuation of Zone A and Low Lying 
        Areas, issued warning to Hotels and Casinos to ensure their 
        facilities were totally evacuated by 12:00 noon on 28 August 
        2005.

        28 August 2005--Mandatory evacuation of Zone A and B and all 
        Low-Lying Areas and strongly recommended the evacuation of the 
        entire Harrison County. Did not order mandatory evacuation of 
        Zone C and the entire county due to having to move ICU patients 
        and putting them under extreme danger (no patient was lost due 
        to this decision) and we feel strongly we would have lost 
        patients from the ICU if we had transported them under a 
        mandatory evacuation.

        29 August 2005--Hurricane Katrina made landfall at 11:00 a.m. 
        central standard time.

    We are working with local, county and state emergency managers, law 
enforcement, and first responders, to ensure we give everyone in 
Harrison County, Mississippi, the education and opportunity to ensure 
the safety of their families. With the increased number of citizens 
living in temporary conditions, we must be proactive in education and 
plans for evacuation. Harrison County has approximately 13,000 FEMA 
trailers with around 32,000 people living in these facilities. This 
brings a new situation to the county as to when to start the evacuation 
of these facilities due to numbers and safety. Under normal conditions 
we would not have to evacuate 30,000 to 50,000 people from Harrison 
County in a tropical storm condition. However, with the extreme danger 
of winds in excess of 50 knots either destroying or severely damaging 
these temporary facilities we must encourage everyone to evacuate from 
the trailers from tropical storm to CAT 5 hurricanes. We also, have 
between 10,000 and 15,000 volunteer workers and approximately 20,000 
other workers in the county each day, and most are living in tent 
cities or some form of temporary facility. We will need additional time 
to get these people to safety.
    The ability to get the citizens, volunteer workers and other 
workers helping to rebuild South Mississippi to leave the area during a 
threat of a Tropical Storm/Hurricane will most likely be very easy. 
Most of the people in Harrison County are prepared to leave the area 
however; some may not have transportation or financial means.
    Harrison County will evacuate as a county, including the cities of 
Biloxi, D'Iberville, Gulfport, Long Beach, and Pass Christian. The 
determination to evacuate will be made by the supervisors and mayors 
through the Emergency Management Director. This decision will come 
after extensive research of all available information. We will have 
briefings with Slidell Weather, National Weather Service, National 
Hurricane Center, State Emergency Management, and the Governor's 
Office, to ensure we have all available information. Slidell Weather 
will be our primary weather facility, and we will get a briefing after 
each national advisory update on the storm. The decision to evacuate an 
area will be determined by the wind force and tidal surge expected to 
hit Harrison County. As we have learned from Katrina we must evaluate 
storms by both wind velocity and tidal surge. Hurricane Katrina was 
only a CAT 3 Hurricane for wind; however; she was a CAT 5 for tidal 
surge. The diameter of the eye and total storm will determine the area 
and reasons for evacuating. The following is an example of when we 
would evacuate each area:

        Tropical Storm to CAT 1 Hurricane--Evacuate Zone A and all low 
        lying areas. Strongly encourage the evacuation of all FEMA 
        trailers, tent cities, and anyone living in temporary housing. 
        This would include homes that have not been completely rebuilt.

        CAT 2 to CAT 4 Hurricane--Evacuate all volunteers and outside 
        workers at 72 hours before landfall and mandatory evacuation of 
        Zone A and Low-Lying Areas at 48 hours before landfall and Zone 
        B and parts of Zone C at 36 hours before landfall. A complete 
        evacuation of the county will not be ordered due to putting 
        citizens in more danger by evacuating hospitals and assisted 
        living homes. All hotels and casinos on the beach and Back Bay 
        will be mandatory by 24 hours before landfall.

        CAT 5 Hurricane--Mandatory evacuation of entire county.

    We would also, work both the wind and tidal surge for CAT 2-4 to 
determine the areas to be evacuated.
    Hurricane Katrina taught us many lessons, and we need to ensure we 
correct all of the faults we encountered before, during, and after 
Katrina. The following are areas we had problems and what we are 
planning to ensure correction:

        1. Evacuation: The process of evacuation during Katrina was 
        extremely good and we feel everyone that wanted to evacuate had 
        the opportunity. However, some people would not evacuate due to 
        health, pets, and believing they lived through Camille and 
        nothing could be worse than Camille.

        Correction: We are preparing a Special Needs Shelter for 
        citizens with requirements for medical attention everyday. The 
        area for Harrison County will be Perkinston Community College 
        and be funded and manned by the State Department of Public 
        Health. We will also have a Special Needs Shelter in Harrison 
        County at the Biloxi High School for people with special needs, 
        but, no medical care required daily. We will also have 
        transportation to take citizens to shelters out of harms way in 
        north Mississippi. We have the first Pet Friendly Shelter in 
        Harrison County, located at Harrison Central High School. This 
        shelter will allow citizens to take their pets to a shelter and 
        stay with the pets, we learned many citizens did not evacuate 
        due to not willing to leave their pets behind. This caused 
        several deaths of both citizens and pets. Pets sometime become 
        more than just a pet; they become part of the family. We are 
        giving our citizens, volunteers, and workers data and education 
        on what could happen and the importance of evacuation.

        2. Shelters: We did not have adequate facilities for our 
        citizens in the shelters due to lack of backup power sources, 
        sanitary facilities, communications, and food/water. No Special 
        Needs Shelter with proper staffing and equipment--No Pet 
        Friendly Shelters.

        Correction: We have worked through the Red Cross to staff as 
        many shelters as possible with trained personnel and proper 
        food/water. We have requested the funds to buy backup 
        generators for each facility used for shelters. Coca-Cola and 
        Pepsi have committed to donate water for some of these 
        facilities. MEMA will have food/water in warehouses to be 
        brought to Harrison County within hours of landfall. As 
        mentioned before we have a Special Needs Shelter and Pet 
        Friendly Shelter.

        3. Transportation: We did not have public transportation to 
        take our citizens outside of Harrison County for evacuation. 
        This caused numerous citizens to either try to ride the storm 
        out at home or go to a shelter of last resort.

        Correction: We have transportation for all citizens, 
        volunteers, and other workers to take them to a safe shelter 
        out of harms way, this is being provided by the State 
        Department of Education. Also, Coast Transit Authority will 
        bring anyone requiring transportation to an area to transport 
        north or a shelter of last resort.

        4. Fuel: Fuel was nonexistent after Hurricane Katrina. We did 
        not have proper backup supplies, generators, and procedures to 
        ensure we could get fuel to critical facilities and emergency 
        equipment.

        Correction: We have requested back-up generators for all of the 
        county fuel pumping stations. If money is not available to 
        purchase these we will rent them for this season. MEMA is 
        working a contract with fuel companies to supply fuel to 
        Harrison County within hours of storm landfall. The fuel will 
        continue until we can get our own resources operational. 
        Harrison County has a fuel distribution schedule for each 
        critical facility and to ensure emergency equipment is refueled 
        without a break in operations.

        5. Communication: The loss of cellular power and cables being 
        downed or severed during Hurricane Katrina, caused the Gulf 
        Coast area extreme problems after the storm. Cellular towers 
        were operational only a few hours after the storm. The loss of 
        cellular service was excessive use and failure of emergency 
        backup power (battery or generator). The cable connecting the 
        Mississippi Gulf Coast to Mobile was severed by debris from the 
        bridge and caused almost complete loss of the 228 area code. 
        The 911 emergency radios were operational the entire time and 
        Southern Link radio service was re-established within two days 
        of the storm. However, the 911 radio system was not compatible 
        for state and other agencies that responded to the disaster.

        Correction: Bell South has repaired the cables and added 
        measures to ensure this does not happen again. Cellular 
        services in the area have installed generators to some towers, 
        and have a scheduled method to refuel the backup systems. They 
        have also, arranged for Cellular on Wheels (COW) to be in place 
        within hours after landfall. The state has developed a Wireless 
        Communication Commission, and is working on development of a 
        statewide emergency system that is compatible to local system, 
        ensuring all agencies can talk to each other during a disaster.

        6. Sanitary Facilities: After Katrina the pumping stations for 
        our sanitary systems were inoperable due to loss of power. We 
        did not have sufficient backup generator systems to continue 
        the operation. The county did not have a contract or any 
        agreement to provide backup facilities or generators.
        Because of this we had citizens in critical facilities and 
        shelters without sanitary facilities for almost one week, 
        causing severe health conditions.

        Correction: We have back-up generators on most of our treatment 
        plants and pumping stations. A contract is being established 
        with MEMA to ensure we have back-up sanitary facilities brought 
        into the county within hours of landfall.

    As you can see we had numerous areas that needed improving before 
hurricane season 2006. Most of these areas have been addressed and 
corrected. Some of the areas still require resources to correct and 
funding requests have been filed with the County, State, and Federal 
authorities.
    Major shortfalls are funding to purchase generators, equip 
shelters, re-inforce buildings to be used as shelters, communication 
equipment, and construction of new Emergency Operations Center. All of 
these items are currently being staffed as to how we acquire the 
funding. The cost of evacuation will become a factor in the future if 
the 2006 season is as active as predicted. With fuel and hotel pricing 
rising everyday the ability for a family to evacuate several times in a 
season will be a financial hardship.
    Mr. Chairman and members of this distinguished committee; it has 
been an honor to address you today on the lessons learned from 
Hurricane Katrina and how we plan to correct the shortfalls in Harrison 
County. We are better prepared today than ever before however; we still 
have needs and will require assistance to complete our projects. Our 
motto in Harrison County is: ``Hurricane Katrina Was a Force of Nature 
and What We Do After Is an Act Of God.'' Harrison County is in a state 
of disaster and will take years to rebuild. However, America should 
know our spirits are not broken and ``We Will Rebuild Together and Be 
Better Than Ever.''
    Thank you for your time and consideration.

    Senator DeMint. That's good news, General, thank you.
    General Spears.

        STATEMENT OF MAJOR GENERAL STANHOPE S. SPEARS, 
               ADJUTANT GENERAL OF SOUTH CAROLINA

    General Spears. Good afternoon. Mr. Chairman, distinguished 
members of this subcommittee, thank you for the opportunity to 
address you this afternoon on the matter--this matter of 
extreme importance.
    Though my remarks will have a South Carolina slant to them, 
I think you will find they are relevant to all other States.
    National Guard across the country has been busy--has been 
extremely busy preparing for this year's hurricane season. 
States directly impacted by hurricanes understand their 
responsibility to help their neighbors in need. Moreover, we 
all understand that the preparations we make for hurricanes 
also affects how we will deal with other emergency situations, 
whether man-made, natural, or the act of terrorism.
    Although the National Guard in the States directly impacted 
by Katrina, with considerable support from other States, 
responded decisively and effectively, the scale of that 
disaster highlighted significant shortcomings in the Nation's 
emergency response, including the use of the National Guard and 
the active military.
    One of the key lessons learned involves command-and-control 
issues. Military support to civil authorities is just that. 
States and local authorities are in charge. The military is 
there to support, and not to take charge. The challenge is to 
ensure unity of effort among Federal, State, and local 
agencies, along with non-governmental and private volunteer 
organizations, such as the Red Cross and the Salvation Army. 
Unity of effort requires the ability to communicate in a 
timely, effective manner, horizontally and vertically, and 
develop a common operating picture among all agencies.
    In my opinion, the National Guard can be a key enabler to 
ensuring that unity of effort. We can bring communications 
equipment to multiple incident sites that enable first 
responders to communicate with each other and the military over 
disparate radio systems. For example, 800 megahertz UHF, VHF, 
HAM radios--this equipment allows all the systems to 
intercommunicate. The National Guard Bureau has purchased a 
limited number of systems that provide this unique capability. 
The latest version is called the Joint Incident Site 
Communications Capability, and was first fielded by the South 
Carolina National Guard in 2005. We will be demonstrating, in 
Charleston, South Carolina, next month, this system, and I hope 
that all of you can attend.
    In addition to communications support, the Guard can bring 
very significant capabilities to support civil authorities. 
These include security forces, engineers, transportation, 
logistical support, rural search and rescue.
    Is the National Guard ready? I can only speak for the South 
Carolina National Guard, and the answer to this question is 
yes. Certainly, overseas deployments have stressed our force, 
but even when we peaked, with over 4,000 South Carolina Army 
National Guard soldiers mobilized in 2004, we had sufficient 
strength and equipment available in South Carolina to meet all 
of our State's emergency contingency plans.
    Are our soldiers and airmen ready? You bet. One of the 
major reasons young people join the National Guard is to be 
there in times of emergencies that affect their neighbors, 
friends, and families.
    While we have not had any war-stoppers when it comes to 
equipment for natural disasters in South Carolina, the question 
that we can't answer is, how much is enough? How many 
electrical generators will we be asked to supply? How many 
helicopters will be needed for search and rescue? How many off-
road trucks will be required to deliver potable water, food, 
clothing, medical supplies, and other commodities to hard-to-
reach areas? Moreover, many other South Carolina--I'm sorry--
many other National Guard States have critical shortages of 
authorized equipment.
    Those questions, unfortunately, cannot be answered prior to 
the impact of the event. The bottom line is, the Guard is 
prepared.
    I, again, thank you for this opportunity, and look forward 
to addressing your questions.
    [The prepared statement of General Spears follows:]

        Prepared Statement of Major General Stanhope S. Spears, 
                   Adjutant General of South Carolina
    Good afternoon.
    Mr. Chairman, distinguished members of this subcommittee, thank you 
for the opportunity to address you this afternoon on this matter of 
extreme importance.
    Though my remarks will have a South Carolina slant to them, I think 
you'll find they are relevant to all of the states. The National Guard 
across the country has been extremely busy preparing for this year's 
hurricane season. States directly impacted by hurricanes understand 
their responsibility to help their neighbors in need. Moreover, we all 
understand that the preparations we make for hurricanes also affects 
how we would deal with other emergency situations--whether man-made, 
natural, or the act of terrorism.
    Although the National Guard in the states directly impacted by 
Katrina, with considerable support from other states, responded 
decisively and effectively, the scale of that disaster highlighted 
significant shortcomings in the Nation's emergency response including 
the use of the National Guard and the active military.
    One of the key lessons learned involves command-and-control issues. 
Military support to civil authorities is just that--state and local 
authorities are in charge. The military is there to support, not take 
charge. The challenge is to ensure unity of effort among federal, 
state, and local agencies along with non-governmental and private 
voluntary organizations, such as the Red Cross and Salvation Army.
    Unity of effort requires the ability to communicate in a timely, 
effective manner, horizontally and vertically, and develop a common 
operating picture among all agencies. In my opinion, the National Guard 
can be a key enabler to ensuring that unity of effort. We can bring 
communications equipment to multiple incident sites that enables first 
responders to communicate with each other and the military over 
disparate radio systems, for example, 800 megahertz, UHF, VHF, HAM 
radios. This equipment allows all systems to intercommunicate. National 
Guard Bureau has purchased a limited number of systems that provide 
this unique capability. The latest version is called the Joint Incident 
Site Communications Capability, and was first fielded by the South 
Carolina National Guard in 2005. We will be demonstrating this system 
in Charleston next month, and I invite you to attend.
    In addition to communication support, the Guard can bring very 
significant capabilities to support civil authorities. These include 
security forces, engineers, transportation, logistical support, and 
rural search and rescue.
    Is the National Guard ready? I can only speak for the South 
Carolina National Guard and the answer to that is yes. Certainly, 
overseas deployments have stressed our force, but even when we peaked 
with over 4000 South Carolina Army National Guard soldiers mobilized in 
2004, we had sufficient strength and equipment available in South 
Carolina to meet all our State's emergency contingency plans.
    Are our soldiers and airmen ready? You bet! One of the major 
reasons young people join the National Guard is to be there in times of 
emergencies that affect their neighbors, friends, and families.
    While we have not had any ``war stoppers'' when it comes to 
equipment for natural disasters in South Carolina, the question that we 
can't answer is ``how much is enough?'' How many electrical generators 
will we be asked to supply? How many helicopters will be needed for 
search and rescue? How many off-road trucks will be required to deliver 
potable water, food, clothing, medical supplies and other commodities 
to hard to reach areas? Moreover, many other National Guard States have 
critical shortages of authorized equipment. Those questions, 
unfortunately, cannot be answered prior to the impact of the event. The 
bottom line is ``The Guard is Prepared.''
    I, again, thank you for this opportunity, and look forward to 
addressing your questions.

    Senator DeMint. General Spears, we talked earlier. I had an 
initial concern that, with talk of moving National Guard troops 
from different States to the borders as part of securing our 
borders, that we might be undermanned in times of a hurricane. 
Is that a concern of yours?
    General Spears. Yes, sir, it is. And if we will be left 
alone during the months of November--I'm sorry--during the 
months of April through November in order to protect our State 
in the event something happens, we can handle that. But if we 
have to provide troops to other parts of the country, it will 
hurt us. But, if they would just leave us alone during those 
times, it would be very helpful.
    Senator DeMint. Just another quick question, and I want to 
give my colleagues a chance to ask questions. What are the real 
keys to success? And, General Spraggins, you could answer here, 
too. I've heard some comments from guardsmen that governors are 
inconsistent when they order the Guard to be prepared or get 
involved with evacuations, and that we need to get geared up 
sooner. And that's--hasn't been just in the Katrina states, 
that has been in other places, too. I think it may be 
something, General Spears, you mentioned. And there's also the 
concern about cost of gearing-up for a possible storm. Does 
that create an obstacle to deploying guardsmen to be ready for 
a--potential hurricanes?
    General Spears, I'll let you start.
    General Spears. Sir, I think the more time we get notice 
that we are going to get hit with something is essential. And I 
would like to see that the governors be given the authority to 
give their National Guard--and to all the other people who are 
going to respond--at least 72 hours notice. I have heard, and I 
know in my own state, that our Governor is concerned about 
expense. And I just wish that the Federal Government could step 
forward and say, ``governors, we're going to give you enough 
money to take care of that 72-hour notice in order to 
properly--to protect our people in our State.''
    Senator DeMint. General Spraggins, is money a factor, as 
far as gearing up the Guard to get ready?
    General Spraggins. Yes, sir, it is. Matter of fact, I had 
the conversation, just a couple of days ago, with Major General 
Cross, the Adjutant General of Mississippi, and one of the 
things was, how quick can we mobilize? And--now, he feels very 
confident--General Cross feels very confident that he can get 
his people there within 24 hours prior to the storm, to have 
the people on ground to help us out to do what we need, and the 
people after that.
    The question we were asking him was for some things to help 
us in advance. And he--and his idea is, ``I can't be there 72 
hours prior to the storm,'' or, ``I can't be there 48 hours, 
maybe, because of the fact of cost.'' And that was an issue, 
because--so, I agree with General Spears, if there's a way to 
give the governors authority to be able to help them with the 
backing of the Federal Government to give the funds, I think it 
is a big issue, sir.
    Senator DeMint. So, the way it stands now, if a governor 
orders National Guard into place 3 or 4 days before a potential 
storm, the State is stuck with the bill----
    General Spraggins. Right.
    Senator DeMint.--is that right?
    General Spraggins. Yes, sir.
    General Spears. That's correct.
    Senator DeMint. OK.
    General Spraggins. And then--sir, and then like to that, 
most of the time we don't know, but maybe 3 days. That's about 
the max that we have. But that's--I think, is one of the major 
reasons.
    Senator DeMint. One thing I got out of this is, we need to 
make sure the Administration coordinates with the coastal 
states not to have the Guard serving in any other area during 
hurricane season.
    Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Senator Stevens.
    The Chairman. Yes, sir?
    Senator Bill Nelson. Before you got here, I wanted to thank 
you, and I complimented you, because you were instrumental at 
the end of the last hurricane season, of us getting six 
additional positions in the National Hurricane Center for Max 
Mayfield. And he can tell you, in his own words, what that has 
meant to him, as he's getting prepared. And I want you to know, 
personally, how much I appreciate your direct intervention as 
we were trying to give him the stuff that he needed. And I want 
Mr.----
    The Chairman. Would you yield just there?
    Senator Bill Nelson. Certainly.
    The Chairman. I'm pleased to hear that. I want to arrange 
for them to come up and fish in Alaska so they can see what 
happens up there, too. OK?
    Senator Bill Nelson. You have----
    The Chairman. We have typhoons up our way.
    Thank you.
    Senator Bill Nelson. You have typhoons?
    The Chairman. He can tell you about them.
    Mr. Mayfield. I would love to be the first one to volunteer 
to go fishing in Alaska, Senator.
    [Laughter.]
    Senator Bill Nelson. Well, Mr. Mayfield, if you'll just 
take the opportunity here to share with the Committee the 
potential single-point failure on a G-4 jet and what that means 
to you being able to track? And also, would you share with the 
Committee the need for a computer modeling group in NOAA to 
help you in the accuracy of your predictions?
    Mr. Mayfield. I'll be glad to, Senator.
    There are many parts of the puzzle here, and it's not just 
about the observations. The observations are important, and we 
can demonstrate--in fact, NOAA's Hurricane Research Division 
has made these impact studies with and without that jet data. 
And with the jet data, the one jet that we have, we have shown 
a 15- to 20-percent improvement, on average, in the watch/
warning period. And, believe me, we have a couple of poster-
childs here in Katrina, in Rita, with and without that data. 
The forecasts without the data would not have been nearly as 
good as they were with that data.
    So, that is one concern, as Senator Nelson said, but it's 
not all just about the observations. We have this new--as I 
mentioned in my testimony, a new hurricane model being 
developed that will become operational in 2007. And, in my 
opinion, we can move this along faster if NOAA had a dedicated 
hurricane modeling group. We have a modeling group called the 
Environmental Modeling Center right now. And they have really 
stepped-up to the plate and done some good things for us. But 
it would move along faster if we actually had a group dedicated 
to the hurricane modeling.
    Senator Bill Nelson. And I would just add to that, what he 
does at the National Hurricane Center to get the ultimate track 
that they decide is, they take that series of models--it's six 
or seven models, isn't it?
    Mr. Mayfield. Actually, about a dozen, total.
    Senator Bill Nelson.--and they average it together, and 
then he puts his own Kentucky windage behind it as to what he 
sees in the data. What--Mr. Mayfield is suggesting that if they 
could go on and get this modeling group in NOAA set, it would 
be another place that they could coordinate all of that data 
with their own models and improve the accuracy of the 
predictions. And I think it speaks for itself. It's clearly in 
the interest of the country.
    Thank you, Mr. Chairman.
    Senator DeMint. Thank you, Senator.
    Chairman Stevens.
    The Chairman. No questions.
    Senator DeMint. No questions?
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    Mr. Mayfield, as you know, when a hurricane's coming, 
everybody in a coastal area immediately focuses on, and talks 
about, Categories 1 through 5. And that's what every 
conversation is about, and how everybody tracks the development 
of a storm. And I'm concerned that that sometimes does us as 
much disservice as service, because it muddies up a lot of very 
important specifics that can vary within a category.
    What are your thoughts on that? And if that shorthand does 
have real pitfalls, how do we fine-tune it?
    Mr. Mayfield. This is a very legitimate issue. And, first 
of all, the Saffir-Simpson hurricane--the National Weather 
Service doesn't have ownership of that. It was developed 
originally by Herb Saffir, a consulting engineer in Coral 
Gables, Florida. It was also never meant to be a stand-alone, 
you know, index. You know, if you look back at our advisories, 
we really do--we talk about the size, and we try--every 
advisory there, you know, within the last 2 or 2-and-a-half 
days of landfall in Louisiana, we tried to emphasize the size 
of Katrina as well as the intensity. And I--Joe and I have 
talked about the storm surge, but if you actually look at our 
storm surge forecast in those advisories, they were excellent, 
the numbers that were in there.
    But I think the point is, is there one index that will 
account for the rainfall and the storm surge, and the wind, and 
the tornados? And I'm certainly open to ideas on how to do 
that. A few people have proposed a few things that, quite 
frankly, don't do much for me right now, but I'm very willing 
to consider anything that the academic community or anybody 
else comes up with.
    I've seen one that--it accounts for the size and the winds 
to some extent. But Hurricane Charlie didn't even make the 
scale. I mean, Charlie was a Category 4 hurricane, but it was 
so small that it didn't even register on this index.
    So, we've got to be a little careful. And I am very 
hesitant to just go with another scale for, let's say, storm 
surge. If we have too many scales out there, it's going to be 
very confusing.
    So, Saffir-Simpson has served us well, but it's not stand-
alone, and I think that we do need to do a better job of 
emphasizing all the, you know, hazards associated with a 
hurricane. And we really do try to do this. I think the next 
step is really getting the media to help focus on things other 
than just the Saffir-Simpson scale.
    Senator Vitter. Well, let me say that your advisories are 
great, because they go into that detail about different 
factors. The problem is, nobody, relatively speaking, reads the 
whole advisory, and it's not encapsulated in a very quick 
number. And maybe the solution isn't one scale, but a very 
limited number of scales focused on different factors. Wind 
speed, storm surge, size--might be three. But associate numbers 
with it, so that people can grasp it quickly. It's a storm 
surge X, it's a wind speed X, it's a size Y.
    Mr. Mayfield. And I'm very willing to consider that. 
We'll--you know, before introducing anything like that, we 
would get some input from our customers. And I'm just a little 
hesitant about multiple scales causing some confusion, but I 
can assure you we'll do everything we possibly can to make sure 
that people understand it's not just about the maximum 
sustained wind, it's about the size, the surge, the rainfall, 
the tornados, the whole nine yards. And we really do teach 
this--I can assure you that we teach this to the local and 
State emergency managers. When they come to one of the FEMA-
sponsored workshops at the Hurricane Center, we go out of our 
way to emphasize that.
    Senator Vitter. Well, I appreciate all that work. And I 
know it is in the advisories. But I'd encourage you to think 
more about how that can be very quickly communicated to the 
public. And specifically, of course, storm surge is a huge 
issue. Is it fair to say--I may be wrong, but is it fair to say 
that the surge you get is more associated with the hurricane, 
maybe a day out, than it is with the wind speed right at 
landfall?
    Mr. Mayfield. Well, the surge--sorry--our surge simulations 
were actually very good. And I don't have that at my fingertips 
here. I'll be glad to provide that.
    [Information.]
    Mr. Mayfield. But the--our storm surge model actually did a 
very good job. A lot of the wave action that did a tremendous 
amount of the damage on the immediate coastline was, indeed, 
carried over from when it was a Category 5 hurricane just the 
afternoon before----
    Senator Vitter. Right.
    Mr. Mayfield.--And evening before landfall.
    Senator Vitter. I guess what I'm suggesting as--is the 
following. Often hurricanes go down in wind speed near 
landfall. Often that makes people breathe a big sigh of relief, 
but, in fact, if you have, ``Category 5-like storm surge'' a 
day out, it's not necessarily going to go down--probably won't 
go down--by the time it hits.
    Mr. Mayfield. That's especially true of the wave action 
that comes in along with the storm surge. We've--we know we 
need to do a better job on that. In the case of Katrina, you 
know, we were actually higher, operationally, with the wind 
speeds than we finally ended up with on post-analysis. We 
bumped it down a little bit, on post-analysis there. But I'd 
rather see that happen than the opposite, which Senator DeMint 
talked about----
    Senator Vitter. Sure.
    Mr. Mayfield [continuing]. Earlier.
    Senator Vitter. Sure.
    A final question. There has been some suggestion--and I 
don't know if it was out of your forecast or elsewhere--that 
the early part of this season for parts of the Gulf Coast might 
be particularly active, as opposed to the traditional season, 
where, as you say, activity would be expected to peak in the 
middle to later part of the season. Did I hear things right? Is 
there any validity to that?
    Mr. Mayfield. Well, that didn't come from us, but the peak 
of the season is definitely in the middle of August to the 
middle or the end of October. And, typically, early- and late-
season storms do form in the Gulf of Mexico or the western 
Caribbean, so that's not--that would not be unusual if we did 
have something in the Gulf or Caribbean early.
    Senator Vitter. But there's nothing about this season, with 
regard to those factors, that's different, in your opinion, 
from a typical season, as it looks now.
    Mr. Mayfield. No, sir, other than the fact that the Gulf of 
Mexico water temperatures are extremely warm, and that's like 
high-octane fuel for a hurricane, so we really have to watch 
that carefully. Rita--Hurricane Rita went from a tropical storm 
to a Category 5 hurricane in 36 hours. Wilma went from a 
category--from a tropical storm to a Category 5 in 24 hours. 
Luckily, both of those cases occurred over the open waters of 
either the--well, the Gulf or the Caribbean.
    One of these days, that's going to happen right up at the 
time of landfall, and that's what's really going to get us. And 
we really have been--we've tried to be very honest with people 
in saying that we do--we know we help with intensity 
forecasting. NOAA has a plan. We're headed the right direction 
there. But it's a very, very difficult problem to solve, and 
it's going to take us some time.
    Senator Vitter. Thank you.
    Senator DeMint. Senator Lott.
    Senator Lott. Thank you very much, again, Senator DeMint, 
for having this hearing.
    Mr. Mayfield, thank you, again. I remember watching you. I 
mean, you warned us. You said, ``This is going to be a very bad 
one.'' And you had me convinced, and most of us along the Gulf 
Coast.
    Let me pick up just two or three things on the area you 
were just talking about, this storm surge issue. This was an 
abnormally high storm surge associated with Hurricane Katrina, 
wasn't it?
    Mr. Mayfield. Absolutely.
    Senator Lott. In my hometown--I mean, at my house, as best 
we can determine by the mark on trees, the storm surge reached 
21-22 feet. Over in Hancock County, I think it was 32 to 35 
feet. And as--you know, you can't build a house, or a business, 
or anything high enough to withstand that kind of surge if you 
get a direct hit. Is that accurate?
    Mr. Mayfield. Well----
    Senator Lott. I mean, I'm talking about the size of it, up 
to 35 feet.
    Mr. Mayfield. That's higher than what I've seen measured. 
I've seen values up approaching 30 feet----
    Senator Lott. Thirty feet.
    Mr. Mayfield.--but wave action on top of that.
    Senator Lott: Yes.
    Mr. Mayfield. So, I----
    Senator Lott. Yes.
    Mr. Mayfield.--It's----
    Senator Lott. If the big one didn't get you, the following 
wave action probably would, as it sucked back out in some 
areas.
    You know, we have hurricane hunters that will go in there, 
and they take a look at these hurricanes, from Keesler Air 
Force Base, Biloxi, Mississippi, and they do a wonderful job 
flying into the center of these things, the eyes, and get us a 
lot of information. I guess it goes to you, and it's very 
helpful to you. Now, when are we going to figure out how to 
reduce a hurricane's strength--I mean, this hearing is disaster 
prevention and prediction. Can't we seed those things? Can we 
just bomb them, you know, blow them apart before they come 
ashore? How about that idea?
    Mr. Mayfield. I get asked that question every now and then, 
Senator----
    Senator Lott. Well, I've been hearing about seeding 
hurricanes all my life.
    Mr. Mayfield.--well----
    Senator Lott. Can we do that?
    Mr. Mayfield.--NOAA used to have a program where we did go 
out, with the NOAA P-3s, and seed hurricanes. And the idea was 
to fly--you know, and seed the eyewall of the hurricane outside 
the eyewall to--you know, like the ice skater, if your arms are 
in tight, you spin fast; you extend your arms, you slow down--
the idea was to expand that eyewall. But----
    Senator Lott. It didn't work?
    Mr. Mayfield.--it did not work. And it--well, we've had 
examples. Hurricane Allen, 1980, is a good example. It went 
from a Category 5 to a Category 3, 5, 3, 5, 3, three different 
times without any seeding. And if nature can do that on its 
own, it's almost impossible to tell what puny man can do.
    Senator Lott. Well, we need you to give a little more 
thought to prevention. We've got to find a way to----
    Mr. Mayfield. I have a stack of letters I'd be glad to----
    Senator Lott.--deter these things.
    Mr. Mayfield.--share with you on that.
    Senator Lott. General Spraggins, again, thank you very much 
for being here. You talked about how our vehicles were 
destroyed, and communications were just extremely difficult. 
Unless you had a satellite phone, you basically couldn't 
communicate once you got on the coast. And you had a limited 
number of those. So, we know, from 9/11 and the Twin Towers, 
that we had problems with interoperability and didn't have 
modern communications. You said, ``We are dealing with, 
decades-old equipment'' in our National Guard and along the 
Gulf Coast, so we know this is a problem. And if we get hit 
again, and we can't communicate again, somebody's going to get 
hammered. I know that Senator Stevens has pushed for more funds 
for interoperability. What are we doing? How are we doing? Are 
you better prepared to communicate next time?
    General Spraggins. Yes, sir, we are better prepared. And 
one of the things that we--our E-911 system, which is like an 
800-megahertz system, did stay up the whole time during the 
storm, but the problem with that was, if you came in with an 
800 megahertz or a high-band or low-band, we could probably 
work you into that to be able to operate. The other thing we 
had was zero communication with the rest of the State, and that 
interoperability was not there, to be able to communicate with 
Jackson, Mississippi, to be able to communicate with anybody 
else and the first responders that we needed.
    Senator Lott. You didn't call me.
    General Spraggins. Sir? No----
    Senator Lott. You didn't call me.
    General Spraggins. We couldn't get to you. And--but we 
couldn't get through with any of those. But the thing that we 
have done----
    Senator Lott. Are we going to be able to----
    General Spraggins. Yes, sir----
    Senator Lott.--the next time?
    General Spraggins. Mr. George Phillips, a Public Safety 
Director for the State of Mississippi, has put together a 
wireless communications committee headed up by Mr. Bill 
Buffington, and they're working an issue, at this point, and 
they--to be able to handle that for the whole State, and they 
are working through our counties to make sure that we can go 
interoperable with them to be able to do that. And I know 
that's part of the bill that is up here at the Senate at this 
time, and--so, any help in that would be greatly appreciated.
    Senator Lott. General Spears, have you been addressing this 
potential problem in your State of South Carolina?
    General Spears. Yes, sir, we have. And we are having an 
exercise, just next week, testing one of the new communications 
equipment that we have.
    Senator Lott. Right.
    Thank you very much, Mr. Chairman.
    Senator DeMint. Thank you, Senator.
    Just another quick question. General Spears, if a hurricane 
hits Mississippi, what kind of systems are set up for our Guard 
to provide reinforcements, or vice versa? How do the different 
Guards in the different states work together on backup and that 
kind of thing?
    General Spears. Sir, we have agreements among the States to 
assist each one of us, and we have a--we have the 228 Signal 
Brigade headquarters located in South Carolina that is the 
premier signal brigade in the entire country, and we've already 
been talking to the--our other States--in the Southeast, in 
particular--and that unit is available to them in the event 
there is an emergency.
    Senator DeMint. Well, if you show up in Mississippi, are 
the--are you able to use the same communication systems that 
work with General Spraggins' people? Do we have 
interoperability of communication system when we bring Guards 
together from around the country?
    General Spears. Yes, we do. And that's one reason we are 
testing that system.
    Senator Lott. To the credit of the National Guard--I don't 
know how they do it, but they have prearranged who will come 
in, and in what order, and who, I guess, would be the 
Commander. In fact, I think the Commander on the ground was an 
Alabamian there in Gulfport that day, wasn't he, General 
Spraggins? But, aside from that, whoever it was, they have a 
prearrangement with Guards all over the country. And I remember 
one day I came across some Black Hawk helicopters down there at 
Gulfport, and they were from New York National Guard. So, the 
National Guard was there, literally, from all over the country. 
And so, again, to their credit, they were ready.
    General Spears. Yes, sir.
    Senator DeMint. One quick question, Mr. Mayfield. New 
York--the idea of Manhattan being under 20 or 30 feet of water 
is pretty disturbing, particularly when you consider all the 
underground facilities, from subways to floors on buildings. 
And I don't get the sense that the New Yorkers even think 
that's a possibility. So, I feel like, well, maybe that states 
like South Carolina and Mississippi are--feel a sense or 
urgency and are moving. I'm concerned about a major market like 
New York. What do you--what's your sense of their preparation?
    Mr. Mayfield. The entire Northeast is a big, big concern, 
and it's something that most people don't understand. One of 
the highest storm surges possible anywhere in our country is up 
there in New York, where Long Island juts out at nearly a right 
angle from the New Jersey coast. And if you had a hurricane up 
on the right track into New Jersey, you would have over 25 feet 
of storm surge, up to 30 feet in some areas, around New York 
City. The airports would be flooded, and the subways. Some 
people may think about taking shelter in the subway--they'll be 
flooded. This has the potential for tremendous--not just 
damages, but loss of life.
    I was just at a luncheon meeting before we came over here, 
and there was an emergency manager from New York City assuring 
us that they've been talking to our local forecast office up 
there. In fact, I talked to the meteorologist in charge, Mike 
Wiley, up there, and they've been working hand-in-hand for a 
long time.
    So, I know the decisionmakers understand this, but I'm not 
sure that this is on the top of everybody's list, in the public 
there, as something to worry about. Hurricanes are, you know, 
very rare events up in the Northeast, and that is, indeed, a 
big concern.
    Senator DeMint. Well, thank all three of you. It's been a 
great hearing, very helpful. I certainly want to look into the 
potential support from the Federal level of how we could 
encourage governors to get prepared and engage the Guard in a 
more advanced fashion.
    And, Mr. Mayfield, thank you, again, for your work, and 
please give our thanks to your folks.
    And let's get ready.
    This meeting is adjourned.
    [Whereupon, at 3:40 p.m., the hearing was adjourned.]
                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                              Max Mayfield
Background
    In your written testimony, you commented that we appear to be 
entering into a period of heightened hurricane activity in the 
Atlantic. However, you did not indicate a similar trend for the 
Pacific, though last year's storm season in Hawaii was very violent. 
Recently, the National Oceanic and Atmospheric Administration (NOAA) 
documented warming of ocean waters in the tropics, where storms form. 
This leaves open the question of how certain the National Weather 
Service (NWS) is about what will happen this year, or this decade, in 
the Pacific.

    Question 1. I understand the 2006 Central Pacific Basin forecast is 
for a less than average hurricane year, but how certain are you of this 
forecast?
    Answer. NOAA has issued seasonal central Pacific hurricane outlooks 
since 2003. Given the short record of these outlooks and limited 
availability of long-term historical data, we do not yet include 
uncertainty levels (probabilities) in these outlooks.
    Hurricane activity in the central Pacific is strongly affected by 
El Nino and La Nina. Activity is typically greater during an El Nino 
episode, and less during La Nina and neutral years. This year, tropical 
Pacific Ocean temperatures are expected to remain close to average, 
thus neither El Nino nor La Nina is expected to develop during the 
hurricane season. The forecast is for ``less-than-average'' hurricane 
activity in the central Pacific region this season. We have a 60-70 
percent confidence level in this outlook.
    Two important issues:

        (1) The seasonal central Pacific hurricane outlooks are based 
        on the best possible science available. However, any given year 
        can deviate from the most likely probabilistic outlook due to 
        some environmental forcing mechanism we do not yet fully 
        understand.

        (2) Even in a correctly predicted ``less-than-average'' year, a 
        devastating hurricane could impact the Hawaiian Islands or 
        elsewhere. The odds are simply a bit lower this year.

    Question 2. We have had some very, unexpected severe weather in 
Hawaii this year, including torrential rains, floods, tornados, and 
cyclones. I do not recall the Congress or the public being apprised of 
this risk ahead of time. Why is that?
    Answer. Though the first half of the 2005-2006 winter was dry in 
Hawaii, a change in the large scale weather patterns developed around 
the globe. For Hawaii, this pattern included an area of lower pressure 
just to the west of the Hawaiian Islands. This area of low pressure 
resulted in conditions favorable for heavy rain and severe weather to 
occur (but no tropical cyclones) across the islands from mid February 
to early April.
    The Weather Forecast Office in Honolulu first discussed the 
possibility of this heavy rain period on February 14, 2006, in their 
Area Forecast Discussion. This was 5 days before the first event 
occurred. From February 19 through April 2, the National Weather 
Service Forecast Office in Honolulu issued over 500 advisories, 
watches, and warnings providing accurate and timely information to 
people in Hawaii about imminent or ongoing severe weather.
    Despite the large amounts of rain, the Hawaiian wet season 
(November-April) of 2005-2006 was only the 11th wettest out of the 30 
years, because November and December 2005, were drier than normal.

    Question 3. I see you have identified the at-risk cities in the 
Atlantic and Gulf regions, but have you performed a similar analysis 
for the Pacific, particularly the low-lying islands, which are 
vulnerable to all kinds of severe storm activity?
    Answer. A number of studies have been conducted or are underway on 
tropical cyclone risk analyses for Hawaii and other Pacific Islands. 
Some examples include:

  <bullet> The Hurricane Relief Fund, which found all of the Hawaiian 
        Islands are at equal risk of experiencing a hurricane, and 
        provided an estimation of return periods for different wind 
        speeds across Hawaii.

  <bullet> The University of Hawaii, Manoa Campus, conducted a study 
        funded by Hawaii State Civil Defense and NOAA's Coastal Zone 
        Management program, which determined the frequency of 
        hurricanes expected within 250 miles of Honolulu.

  <bullet> The Pacific Islands Regional Integrated Science and 
        Assessment program supports the emergence of an integrated risk 
        management program for U.S.-affiliated countries and 
        territories in the entire Pacific region. This program 
        emphasizes reducing Pacific Island vulnerability to extreme 
        events such as floods and tropical cyclones.

  <bullet> The Pacific Risk Management `Ohana is a family of risk 
        management partners and stakeholders in the Pacific, and 
        strives to improve the development and delivery of risk 
        management-related information products and services in the 
        Pacific.

    Question 4. Where are the most vulnerable areas, and how are they 
kept prepared and informed?
    Answer. All of the Pacific Islands are vulnerable to tropical 
cyclones. By looking at the historical record, the islands in the 
western Pacific experience more impacts than the Hawaiian Islands in 
the central Pacific. The hazards brought by Pacific hurricanes and 
typhoons are similar to what the Gulf and Atlantic coast experience; 
damaging winds and heavy rains carry a large threat. However, the 
islands experience a relatively small storm surge due to local 
bathometry, but can experience massive waves. For example, in 2004, 
Cyclone Heta in the south Pacific produced waves of 80 to 100 feet.
    There are many ways NOAA and our partners in State and local 
government, media, and other organizations prepare the public. The 
National Weather Service routinely provides training sessions and 
outreach material to all levels of government, schools, volunteer 
agencies, and the general public. Additionally, in May, the National 
Weather Service office in Honolulu, in conjunction with the State of 
Hawaii, conducts Hurricane Preparedness Week to increase awareness 
among the public.
    With the National Weather Service's 5-day tropical cyclone 
forecasts, people are informed early of any potential hurricanes and 
are urged to closely monitor developing conditions. When a storm 
approaches, public, private, and government personnel are kept informed 
by a constant flow of information and warnings by the Central Pacific 
Hurricane Center (CPHC). State and County Civil Defense officials and 
media assist CPHC in getting the word out.

    Question 5. I am concerned that your Pacific forecast will make 
people complacent about the risk of hurricanes and need for evacuation 
planning. What are you doing to get the word out in Hawaii and remote 
areas of the Pacific?
    Answer. Representatives of the Central Pacific Hurricane Center 
(CPHC) have made preparedness presentations on Oahu and all of the 
neighboring islands, to a wide variety of people involved in many 
industries (marine, hotel security, shelters, civil defense, tourism, 
transportation, police, and fire). Additional presentations have been 
given at many State, local, public, and private events at various 
venues, including the Building Industry Association show. CPHC along 
with its partners, including the Federal Emergency Management Agency, 
the American Red Cross, and the State and County Civil Defense, use 
every opportunity to emphasize the need for preparedness regardless of 
the number of tropical cyclones. In the northwest Pacific, the Warning 
Coordination Meteorologist from the Weather Forecast Office in Guam 
visits each U.S. affiliated country/territory every year and gives 
typhoon preparedness presentations. In American Samoa, Weather Service 
Office Pago staff provide similar presentations.

    Question 6. National Oceanic and Atmospheric Administration (NOAA) 
scientists recently reported a warming trend in tropical ocean waters, 
where tropical cyclones and hurricanes begin to take shape. Is it not 
possible that warming ocean waters in the Pacific, over the next ten 
years, will contribute to a heightened period of storm activity in the 
Pacific, more than you have initially forecast?
    Answer. So far, the observed warming trend in ocean temperatures in 
the central Pacific is relatively small compared with the year-to-year 
variability in those temperatures related to El Nino and La Nina 
events. Scientists cannot say with certainty whether oceanic warming in 
the future will, or will not, lead to extended periods of enhanced 
hurricane activity for the central Pacific.
    For the past two decades, scientists have observed that the same 
large scale atmospheric conditions enhancing Atlantic hurricane 
activity have also acted to suppress eastern and central Pacific 
hurricane activity. Because over 60 percent of hurricanes impacting the 
central Pacific area originate in the eastern Pacific region, we can 
say with reasonable certainty that as long as the Atlantic hurricane 
activity continues to be enhanced, we expect the eastern and central 
Pacific hurricane activity to be less active. However, there can be 
exceptions in any given year.

    Question 7. How does coverage of the Pacific compare with the 
Atlantic in terms of NOAA resources?
    Answer. NOAA provides the same level of hurricane forecasts and 
warnings for Pacific storms as for Atlantic storms. All the NOAA 
hurricane models used to forecast Atlantic basins storms are used to 
forecast Pacific storms. NOAA utilizes GOES-West and available Japan 
Meteorological Agency and Department of Defense (DOD) satellite imagery 
to support its Pacific basins forecasts and warnings. Operationally, 
the National Hurricane Center in Miami, Florida, is responsible for 
issuing all Pacific Storm advisories, forecasts, and warnings for all 
eastern Pacific storms (east of 140 degrees longitude). The NOAA/NWS 
central Pacific Hurricane Center, located with the Weather Forecast 
Office in Honolulu, Hawaii, is responsible for issuing all Pacific 
storm advisories, forecasts and warnings for all Central Pacific storms 
(west of 140 to the International Date Line (IDL)). The DOD-Joint 
Typhoon Warning Center, located in Honolulu, Hawaii, is responsible for 
all Pacific Storm advisories, forecasts and warnings for all (western 
Pacific) storms west of the IDL.

    Question 8. How many Hurricane Hunters are based in the western 
Pacific?
    Answer. There are no ``Hurricane Hunters'' based in the west 
Pacific. The U.S. Air Force has conducted a number of surveillance 
studies using small, unmanned aircraft to collect data around typhoons. 
The Department of Defense's Joint Typhoon Warning Center has the U.S. 
typhoon forecasting responsibility for the western Pacific. NOAA is 
examining use of Unmanned Aircraft Systems as a viable platform for 
observations in remote areas.

    Question 9. Is the staff of the CPHC comparable to the staff of the 
National Hurricane Center?
    Answer. The Central Pacific Hurricane Center in Honolulu and the 
National Hurricane Center, which is a part of the Tropical Prediction 
Center in Miami, have different missions, and, therefore, different 
staffing levels.
    The Tropical Prediction Center specializes in tropical weather 
prediction, with a strong focus on hurricane forecasting and 
preparedness. The National Hurricane Center has a dedicated staff of 
hurricane specialists who prepare hurricane forecasts and advisories. 
In addition, the Tropical Prediction Center has other staff members who 
monitor tropical weather conditions throughout the year, and issue 
meteorological forecasts for international marine interests in the 
Atlantic and the eastern Pacific, and others who develop related 
products, software, and communications.
    The Central Pacific Hurricane Center is collocated within the 
Weather Forecast Office (WFO) in Honolulu. The Central Pacific 
Hurricane Center's tropical cyclone responsibilities are integrated 
within the WFO's full range of duties for issuing local forecasts for 
Hawaii, along with regional responsibilities for domestic and 
international aviation, and marine interests for a large area of the 
central Pacific. The Central Pacific Hurricane Center issues hurricane 
forecasts and warnings for a large area of the north central Pacific. 
Due to the low average number of tropical cyclones in the central north 
Pacific (approximately 4.5 per season), the Central Pacific Hurricane 
Center has no dedicated staff assigned to it. When a tropical cyclone 
forms or moves into the central Pacific, specially trained staff are 
assigned hurricane specialist tasks.

    Question 10. What kinds of resources are needed to better track 
cyclones in the Pacific?
    Answer. The suite of observing systems available to hurricane 
forecasters in the Pacific is adequate to track cyclones in the Pacific 
and meet our mission, and our technology to communicate that 
information is also adequate. Given the lack of conventional 
observation data over the Pacific (i.e., few ships and buoys, minimal 
radar coverage except over Hawaii, and the lack of any land based 
systems) forecasters rely heavily on satellite data, both polar 
orbiting satellites and geostationary satellites. Data from these 
satellites populate NOAA's computer models, which provide storm track 
predictions used by our forecasters. Additional observation platforms 
including radars in the western Pacific Islands, critically placed 
buoys, use of unmanned aircraft systems, and improvements expected from 
the National Polar-orbiting Operational Environmental Satellite System 
(NPOESS), could provide additional information for forecasters to 
better track Pacific cyclones. These additional observations are 
addressed through the Global Earth Observation System of Systems, the 
international program to help the international community produce and 
manage environmental information in a way that benefits the environment 
as well as humanity by taking a pulse of the planet.

                                  <all>

</pre></body></html>
